<html>
<title> - DEPARTMENT OF ENERGY MANAGEMENT AND MISSION PRIORITIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
         DEPARTMENT OF ENERGY MANAGEMENT AND MISSION PRIORITIES

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 12, 2017

                               __________

                           Serial No. 115-65
                           
                           
                           
                           
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                          
 
 


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                              _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
27-614                    WASHINGTON : 2019                             




                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
                                 
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                       Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, OKlahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
                         Subcommittee on Energy

                          FRED UPTON, Michigan
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    JERRY McNERNEY, California
JOHN SHIMKUS, Illinois               SCOTT H. PETERS, California
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
GREGG HARPER, Mississippi            KATHY CASTOR, Florida
DAVID B. McKINLEY, West Virginia     JOHN P. SARBANES, Maryland
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                       Massachusetts
MARKWAYNE MULLIN, OKlahoma           G.K. BUTTERFIELD, North Carolina
RICHARD HUDSON, North Carolina       FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
TIM WALBERG, Michigan
GREG WALDEN, Oregon (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     2
    Prepared statement...........................................     3
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     5
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
    Prepared statement...........................................     8
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     9

                               Witnesses

Rick Perry, Secretary, U.S. Department of Energy.................    10
    Prepared statement...........................................    14
    Answers to submitted questions...............................    66


         DEPARTMENT OF ENERGY MANAGEMENT AND MISSION PRIORITIES

                              ----------                              


                       THURSDAY, OCTOBER 12, 2017

                  House of Representatives,
                            Subcommittee on Energy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2123 Rayburn House Office Building, Hon. Fred Upton 
(chairman of the subcommittee) presiding.
    Present: Representatives Upton, Olson, Barton, Shimkus, 
Latta, Harper, McKinley, Kinzinger, Griffith, Johnson, Bucshon, 
Flores, Mullin, Hudson, Cramer, Walberg, Rush, McNerney, 
Peters, Green, Doyle, Castor, Sarbanes, Welch, Tonko, Loebsack, 
Schrader, Kennedy, Butterfield, and Pallone (ex officio).
    Staff present: Ray Baum, Staff Director; Allie Bury, 
Legislative Clerk, Energy/Environment; Karen Christian, General 
Counsel; Kelly Collins, Staff Assistant; Jordan Davis, Director 
of Policy and External Affairs; Wyatt Ellertson, Research 
Associate, Energy/Environment; Adam Fromm, Director of Outreach 
and Coalitions; Ali Fulling, Legislative Clerk, Oversight & 
Investigations, Digital Commerce and Consumer Protection; Jay 
Gulshen, Legislative Clerk, Health; Tom Hassenboehler, Chief 
Counsel, Energy/Environment; Jordan Haverly, Policy 
Coordinator, Environment; Paul Jackson, Professional Staff, 
Digital Commerce and Consumer Protection; A.T. Johnston, Senior 
Policy Advisor, Energy; Ben Lieberman, Senior Counsel, Energy; 
Mary Martin, Deputy Chief Counsel, Energy & Environment; Katie 
McKeogh, Press Assistant; Brandon Mooney, Deputy Chief Energy 
Advisor; Mark Ratner, Policy Coordinator; Tina Richards, 
Counsel, Environment; Annelise Rickert, Counsel, Energy; Dan 
Schneider, Press Secretary; Peter Spencer, Professional Staff 
Member, Energy; Jason Stanek, Senior Counsel, Energy; Madeline 
Vey, Policy Coordinator, Digital Commerce and Consumer 
Protection; Hamlin Wade, Special Advisor, External Affairs; 
Andy Zach, Senior Professional Staff Member, Environment; 
Priscilla Barbour, Minority Energy Fellow; Jeff Carroll, 
Minority Staff Director; Jean Fruci, Minority Energy and 
Environment Policy Advisor; Rick Kessler, Minority Senior 
Advisor and Staff Director, Energy and Environment; Jourdan 
Lewis, Minority Staff Assistant; John Marshall, Minority Policy 
Coordinator; Jessica Martinez, Minority Outreach and Member 
Services Coordinator; Jon Monger, Minority Counsel; Dino 
Papanastasiou, Minority GAO Detailee; Alexander Ratner, 
Minority Policy Analyst; Tuley Wright, Minority Energy and 
Environment Policy Advisor; and C.J. Young, Minority Press 
Secretary.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. The subcommittee on Energy and Power will now 
come to order, and the chair will recognize himself for 5 
minutes for an opening statement.
    First of all, welcome. Welcome, Mr. Secretary, it is great 
to have you here. And today's hearing is going to examine the 
Department of Energy's management and mission priorities under 
the leadership of Secretary Rick Perry, whom I am very pleased 
to welcome this morning for his first appearance before the 
subcommittee.
    DOE performs essential nuclear security and national 
security missions. It plays a central role in ensuring the 
nation's domestic energy security and stewarding America's 
strategic energy interests in the international markets. It 
performs challenging cleanup operations to address its vast 
environmental and nuclear waste liabilities. And it provides 
key energy data, and supports foundational science and 
technological development to advance the benefits of all forms 
of energy and energy delivery to ensure the long-term security 
and prosperity of Americans.
    The success of these diverse missions requires sound 
management and robust Secretarial authorities. Success also 
requires focused attention and budget resources to address the 
most pressing priorities in light of current and anticipated 
energy and security situations.
    In this context, this hearing will help the committee gain 
insight into the Secretary's priorities regarding the 
Department. It also will help the Secretary understand our 
perspective on priorities we see as essential for DOE's 
missions going forward.
    When it comes to energy policy, key priorities include 
DOE's role to ensure energy security, the reliable supply and 
delivery of energy, and the strategic value of our domestic 
energy resources and energy technologies.
    The changing energy landscape in the U.S. has produced 
profound impacts on how our national security policies and its 
respective departmental missions should be oriented. Although 
we are in an era of domestic energy abundance, new threats to 
energy security have been growing and requiring more urgent 
attention.
    In the previous Congress the Commission's work along these 
lines informed enactment of several bills to address emerging 
threats and to update the Department's energy policy and 
security priorities.
    For instance, we enacted legislation to support modernizing 
SPR to improve its emergency response capability. We enacted 
other provisions for DOE to improve emergency preparedness for 
energy supply disruptions, protect energy infrastructure 
physical and cybersecurity, and prioritize energy security in 
federal decision-making. We also lifted the 1970s-era export 
restrictions on crude oil.
    We are continuing in this Congress to move policies that 
enhance the delivery and supply of energy. We are also taking a 
comprehensive look at electricity market structure and recent 
developments and challenges for the way that we generate, 
transmit, and consume electricity in the nation, with an eye 
toward updating the relevant laws governing our electricity 
sector.
    With the able assistance of Vice Chair Joe Barton we will 
be looking at just what is necessary to ensure DOE is 
positioned for new energy and security challenges, all of these 
efforts aimed to update the nation's energy policies to ensure 
more secure, reliable, and affordable energy.
    In recent weeks the Secretary has demonstrated DOE's 
nationally relevant roles regarding energy security and 
reliability. The series of devastating hurricanes hitting 
Texas, Florida, and Puerto Rico highlighted the vital nature of 
robust energy systems and the Department's emergency response 
capabilities. From all accounts, the Department served the 
emergency efforts well. And I look forward to learning what 
more DOE can do to serve the interests of affected areas, 
particularly Puerto Rico.
    The Secretary also recently demonstrated he is willing to 
take action in the area of electricity market regulations. As 
you know, this is an area that the Energy Subcommittee is 
currently very engaged in, with seven hearings thus far under 
our belt, including two last week. While I reserve judgment on 
the policy solutions, the fact that the Secretary stepped into 
this complicated debate reflects the current need to have a 
broader conversation about the functioning of the nation's 
electricity markets.
    Whether it be interventions through the tax code or through 
federal and state environmental policies and mandates, all have 
played a complicated role in the market-driven economic 
outcomes currently affecting the generation profile of the 
power grid. Reliability and resiliency are important attributes 
to begin the conversation, but none of these issues can be 
addressed in a vacuum, as economics, technology, security, and 
how to address other externalities such as environmental 
attributes all will have a role to play. I look forward to 
working with DOE and FERC on these issues as we begin to 
oversee the process.
    The rise of cyber, the transformation of power generation, 
the regulatory challenges that continue to affect the cost and 
availability of all energy, all require a strong voice on 
national energy policy. That is what Congress envisioned for 
DOE 40 years ago, and it is still important today.
    I yield to my friend and colleague, the vice chair of the 
subcommittee, Mr. Rush from Illinois, 5 minutes.
    He switched parties overnight. It is the front page of 
Politico. The Ranking Member. Though I know he would probably 
prefer to be Vice Chair.
    [The opening statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Today's hearing will examine the Department of Energy's 
Management and Mission Priorities under the leadership of 
Secretary Rick Perry, whom I'm very pleased to welcome this 
morning for his first appearance before the Committee.
    DOE performs essential nuclear security and national 
security missions. It plays a central role in ensuring the 
nation's domestic energy security and stewarding America's 
strategic energy interests in international markets. It 
performs challenging cleanup operations to address its vast 
environmental and nuclear waste liabilities. And it provides 
key energy data, and supports foundational science and 
technological development to advance the benefits of all forms 
of energy and energy delivery--to ensure the long-term security 
and prosperity of Americans.
    Success of these diverse missions requires sound management 
and robust Secretarial authorities. Success also requires 
focused attention and budget resources to address the most 
pressing priorities from current and anticipated energy and 
security situations.
    In this context, today's hearing will help the Committee 
gain insight into the Secretary's priorities regarding the 
Department. It also will help the Secretary understand our 
perspective on priorities we see as essential for DOE's 
missions going forward.
    When it comes to energy policy, key priorities include 
DOE's role to ensure energy security, the reliable supply and 
delivery of energy, and the strategic value of our domestic 
energy resources and energy technologies.
    The changing energy landscape in the United States is 
transforming how our national energy policies and respective 
departmental missions should be oriented. Although we are in an 
era of domestic energy abundance, new threats to energy 
security have been growing and requiring more urgent attention.
    The Committee's work along these lines informed enactment 
of several bills in the previous Congress to address emerging 
threats and to update the Department's energy policy and 
security priorities.
    We enacted legislation to modernize the Strategic Petroleum 
Reserve and improve its emergency response capability. We 
enacted provisions for DOE to improve emergency preparedness 
for energy supply disruptions, protect energy infrastructure 
physical and cyber security, and prioritize energy security in 
federal decisionmaking. We also lifted the 1970's-era export 
restrictions on crude oil.
    We are continuing in this Congress to move policies that 
enhance the delivery and supply of energy. Earlier this year 
Mr. Rush and I passed H.R. 3050, which reauthorizes the 
Department of Energy's State Energy Program to help states 
prepare for hurricanes, earthquakes, floods, fuel supply 
disruptions, physical and cyber threats, and catastrophic 
events. With the able assistance of Vice Chairman Joe Barton, 
we will be reviewing just what is necessary to ensure DOE is 
positioned for new energy and security challenges.
    We're also taking a comprehensive look at electricity 
market structure and recent developments and challenges for the 
way we generate, transmit, and consume electricity in the 
nation--with an eye towards updating the relevant laws 
governing our electricity sector.
    In recent weeks, the Secretary has demonstrated DOE's 
nationally relevant roles regarding energy security and 
reliability.
    The series of recent devastating hurricanes highlighted the 
vital nature of robust energy systems, and the department's 
emergency response capabilities. From all accounts, the 
department served the emergency efforts well, and I look 
forward to learning what more DOE can do to serve the interests 
of affected areas, particularly Puerto Rico, going forward.
    The Secretary also recently demonstrated he is willing to 
take action in the area of electricity market regulations. As 
you know, this is an area that the Energy Subcommittee is 
currently very engaged in, with seven hearings thus far under 
our belt, including two last week on this very issue.
    While I reserve judgment on the policy solutions, the fact 
that the Secretary stepped in to this complicated debate 
reflects the current need to have a broader conversation about 
the functioning of the nation's electricity markets.
    Whether it be interventions through the tax code or through 
federal and state environmental policies and mandates, all have 
played a complicating role in the market driven economic 
outcomes currently affecting the generation profile of the 
power grid. Reliability and resiliency are important attributes 
to begin the conversation, but none of these issues can be 
addressed in a vacuum, as economics, technology, security, and 
how to address other externalities such as environmental 
attributes all will have a role to play. I look forward to 
working with the DOE and the FERC on these issues as we begin 
to oversee this process.
    The rise of cyber threats, the transformation of power 
generation, the regulatory challenges that continue to affect 
the cost and availability of energy, all require a strong voice 
on national energy policy. This is what Congress envisioned for 
DOE 40 years ago, and it is still important today.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. No, not for Vice Chair, Mr. Chairman, I wouldn't 
switch parties just to become a Vice Chair. You know that.
    Mr. Chairman, I want to thank you so much for holding this 
long overdue hearing on the Department of Energy's missions and 
management priority.
    Mr. Secretary, you have the distinction of being the first 
agency head under the current Administration to actually come 
before this subcommittee as we sit here. So I also want to 
thank you for gracing us with your presence here today.
    Mr. Chairman, as we know, our budget proposal highlights 
the priorities within an agency. And I must say that I have 
many, many concerns with the FY 2018 budget proposal put forth 
by this Administration. For starters, they are demonstrating 
proposed cuts to some of the most important federal investments 
in clean energy programs, power unit operations, next 
generation energy technologies, and cyber attack management for 
energy systems. The President's DOE budget proposal would slash 
the Office of Energy Efficiency and Renewable Energy by 70 
percent while eliminating the Weatherization Assistance Program 
completely.
    Mr. Secretary, as a former governor I am sure you 
understand that getting rid of a program that benefits so many 
low income families nationwide is a non-starter for me and many 
members of Congress on both sides of the aisle. Recently, Mr. 
Chairman, the Advanced Research Projects Agency-Energy, or 
ARPA-E, will also be terminated in the President's budget, 
although it makes absolutely no sense to eliminate a program 
that spurs innovative energy technologies that can lead to 
major advancements in how we produce, store, and consume 
energy.
    And, frankly, Mr. Chairman, ARPA-E led to $1.8 billion in 
private funding and launched more than 50 new companies since 
its inception. Additionally, the Office of Science, with funds 
in 17 national laboratories, will face a $1 million, or 17 
percent, decrease from FY 2017 levels, mainly impacting the 
world's largest single investment in basic research.
    Mr. Chairman, while I am concerned regarding the diversity 
and leadership in these labs, and in the agency itself for that 
matter, I cannot support the cuts proposed in the President's 
budget. The budget proposal will even cut fossil energy 
research by more than half, even as the President is so 
supportive on the idea of saving coal. Mr. Chairman, instead of 
trying to tip the field in favor of any specific industry, as 
the most recent ill-advised DOE number appears to try to do, it 
makes more sense to invest in the technology of the future to 
create jobs at home which also can be sold overseas.
    Mr. Chairman, I look forward to hearing Secretary Perry's 
vision for the 21st Century energy grid, and if he agrees with 
the majority of stakeholders that we have heard from during our 
entire powering American series. Hearing these experts who 
represented energy technology companies, RTOs, and consumer 
advocate groups, all agree that customer behavior is a driving 
force in shaping what the grid will look like in the future.
    These consumer-driven trends include more control over 
their energy use; a greater demand for cleaner, renewable 
sources of energy to compete with traditional fossil fuels; an 
increase in discriminate generation, battery storage, and 
demand response resources; more energy efficiency initiatives; 
as well as a demand for lower energy costs.
    So, Mr. Chairman, I really look forward to engaging 
Secretary Perry on his vision for this Department that he 
wanted to infamously abolish. And with that, I yield back the 
balance of my time.
    Mr. Upton. The gentleman's time has expired.
    The Chair will recognize the Chairman of the full Energy 
and Commerce Committee, the congressman from Oregon, for an 
opening statement, Mr. Walden.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Mr. Chairman.
    Mr. Secretary, welcome to the Energy and Commerce 
Committee. We are delighted to have you here to share your 
thoughts and views with us and answer our questions. And we 
appreciate your leadership.
    I understand that DOE held a ceremony yesterday to 
celebrate its 40th birthday as a cabinet agency. I think you 
would have to agree, lots has changed in this country, in the 
world, and in the world since Congress created the Department 
of Energy, especially in the national security and energy 
security space, where DOE provides critical functions for the 
country.
    While the domestic and international energy posture is 
substantially different from what it was in the 1970s, I do not 
believe the importance of DOE's role serving the nation and 
public interest has diminished.
    This past August, Secretary Perry joined me at an energy 
roundtable with local officials and energy leaders at McNary 
Dam, on the mighty Columbia River in Umatilla County, Oregon, 
which produces power for the Bonneville Power Administration. 
Of course, Secretary Perry could not leave Umatilla County 
without one of our famous Hermiston watermelons, which I know 
you enjoyed, the best in the world. I believe Secretary Perry 
also left with a greater appreciation of the tremendous zero 
carbon emitting power resource we have that is helping grow the 
economy in Oregon and throughout the Northwest. And I think you 
learned Texas wasn't the only big, open, wide space around that 
poses difficulties getting to as we crisscrossed the great 
Northwest.
    The next day I had the pleasure of accompanying the 
Secretary to DOE's Pacific Northwest National Laboratory and 
then to the Hanford Site, just up the Columbia River from my 
own district in Oregon.
    A couple of observations from that visit are pertinent for 
today. First, it was evident that abundant energy was critical 
to the historical success of Hanford's industrial operations, 
which built nuclear reactors and produced the plutonium vital 
to winning World War II, and later maintaining the nation's 
nuclear deterrent program.
    Second, Hanford and its cleanup operations led to advances 
in engineering practices, research and development programs, 
and scientific activities that are necessary for the site's 
safe and secure operations. And I was pleased to see the 
improvements being made in the cleanup there. That hadn't 
always been the case, and it seems like they are finally on 
track.
    These advances led to the development of a world-class 
national laboratory. And today, the Pacific Northwest National 
Lab, in collaboration and partnership with DOE's 16 other 
national laboratories that are spread out in remote places 
around the world, or country, provide scientific and technical 
breakthroughs to meet our national security and energy security 
needs, from securing our electric grid to advancing storage 
technologies.
    So, as we examine the DOE management and mission priorities 
today, we build on the work that I have asked Vice Chairman 
Barton to undertake with you to look at what a 21st Century 
energy department should look like, we should keep in mind the 
benefits of the interconnected nature of the Department's 
missions. But these missions across DOE's enterprise can be 
expensive and difficult to manage. And so, it is the 
responsibility of the Secretary and this committee and Congress 
to ensure the Department is appropriately aligned to perform 
these missions in a cost-effective manner, and to the maximum 
benefit of the taxpayer.
    And as Chairman Upton has indicated, the energy threats 
today are not the same as the threats of the 1970s, but they 
remain significant. The opportunities do as well. This 
committee will work in the coming months and through this 
Congress to ensure the Department's organization and missions 
are aligned with the energy security challenges of our 
generation.
    And as I said, at my direction the vice chairman has 
already started to facilitate, in coordination with the Energy 
subcommittee, work to ensure that DOE's resources are focused 
on the core missions of nuclear and energy security, 
environmental remediation, mission-enabling science and R&D 
programs. At the same time, the committee will be examining 
expired DOE authorizations, many of which expired over a decade 
ago, to ensure more fully appropriate program alignment.
    I look forward to your testimony, Mr. Secretary, and it 
will be helpful to both sides in our work here in the Energy 
and Commerce Committee. I would also like to ask you to address 
the recent questions that have arisen regarding travel 
expenditures as part of your discussion with our committee 
today.
    In closing, I look forward to working closely with DOE and 
my colleagues as well as we ensure the agency is positioned 
appropriately for the energy security challenges that lie 
ahead. And, again, we are delighted to have you here today, Mr. 
Secretary. I have enjoyed working with you along the way and 
look forward to your testimony and the answers to our 
questions.
    And with that, Mr. Chairman, I yield back the balance of my 
time.
    [The statement of Chairman Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Let me welcome Secretary Perry to his first appearance 
before the Energy and Commerce Committee. I understand that 
yesterday DOE held a ceremony to celebrate its 40 years as a 
cabinet agency. A lot has changed in this country and in the 
world since Congress created the department--especially in the 
national security and energy security space, where DOE provides 
critical functions for the country.
    While the domestic and international energy posture is 
substantially different from what it was in the 1970s, I do not 
believe the importance of DOE's role serving the national and 
public interest has diminished.
    This past August, Secretary Perry joined me at an energy 
roundtable with local officials and energy leaders at the 
McNary Dam, on the Columbia River in Umatilla County, Oregon, 
which produces power for the Bonneville Power Administration. 
Of course, Secretary Perry could not leave Umatilla County 
without a famous Hermiston watermelon--the best in the world. I 
believe Secretary Perry also left with a greater appreciation 
of the tremendous, zero-carbon-emitting power resource we have 
that's helping grow the economy in Oregon and throughout the 
Northwest.
    The next day, I had the pleasure of accompanying Secretary 
Perry to DOE's Pacific Northwest National Laboratory and then 
to the Hanford Site, just up the Columbia River from my Oregon 
district.
    A couple of observations from that visit are pertinent for 
today: First, it was evident that abundant energy was critical 
to the historical success of Hanford's industrial operations, 
which built nuclear reactors and produced the plutonium vital 
to winning World War II and later maintaining the nation's 
nuclear deterrent program.
    Second, Hanford's success, and subsequent cleanup 
operations, led to advances in engineering practices, research 
and development programs, and scientific activities necessary 
for the site's safe and secure operations. These advances led 
to the development of a world-class national laboratory. Today, 
the Pacific Northwest National Laboratory, in collaboration and 
partnership with DOE's 16 other national laboratories, provide 
scientific and technical breakthroughs to meet our national 
security and energy security needs-from securing our electric 
grid to advancing storage technologies.
    As we examine the DOE management and mission priorities 
today, we should keep in mind the benefits of the 
interconnected nature of the department's missions. But these 
missions across DOE's enterprise can be expensive and difficult 
to manage. And so, it is the responsibility of the secretary 
and the Congress to ensure the department is appropriately 
aligned to perform these missions in a cost-effective manner, 
and to the maximum benefit of the taxpayer.
    As Chairman Upton has indicated, the energy threats today 
are not the same as the threats of the 1970s, but they remain 
significant. This committee will work in the coming months and 
through this Congress to ensure the department's organization 
and missions are aligned with the energy security challenges of 
today.
    At my direction, Vice Chairman Barton has already started 
to facilitate, in coordination with the Energy Subcommittee, 
work to ensure DOE resources are focused on the core missions 
of nuclear and energy security, environmental remediation, and 
mission-enabling science and R&D programs. At the same time, 
the committee will be examining expired DOE authorizations-many 
of which expired over a decade ago, to ensure more fully 
appropriate program alignment.
    I look forward to your testimony, Secretary Perry, it will 
be helpful to both these efforts. I'd also like for you to 
address the recent questions that have arisen regarding your 
travel expenditures. In closing, I look forward to working 
closely with DOE and my colleagues as we ensure the agency is 
positioned appropriately for the energy security challenges 
that lie ahead.

    Mr. Upton. The gentleman yields back.
    The Chair will recognize the Ranking Member of the Energy 
and Commerce Committee, the gentleman from New Jersey, Mr. 
Pallone for an opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. And I welcome 
Secretary Perry to the committee. We are pleased to finally 
have you here. After all, it is now the middle of October. And 
you are actually the first cabinet member we have had before us 
this year. So I hope that this is the start of a trend.
    Mr. Secretary, there is certainly a lot for us to discuss 
today, particularly your recent proposal to upend competitive 
electricity markets by providing unduly preferential rates to 
coal and other base load generation. The substance of that 
proposal has serious flaws, in my opinion. Under the guise of a 
crisis of grid reliability, this proposal props up coal and 
nuclear generation with the goal of protecting fuel-secure 
plants that have 90 days of fuel stored on site.
    The DOE's own grid report issued earlier this year stated 
that electricity markets, ``currently function as designed to 
ensure reliability and minimize the short-term costs of 
wholesale electricity. Furthermore, a recent study of major 
electricity outages found that between 2012 and 2016, less than 
a fraction of 1 percent were due to fuel supply problems. So 
the majority of outages are actually caused by severe weather 
impacting the distribution system, a problem exacerbated by 
climate change.''
    So this leads me to question the motivation behind the 
proposal. And to that end I am sending you a letter today 
asking for a detailed accounting of the process you used to 
develop this proposal, including the records of the meeting you 
and your staff had and the taxpayer funds spent developing a 
proposal that seems directed at helping a select group of 
favored energy sources.
    It is an ironic proposal, considering that EPA 
Administrator Pruitt stated as part of his announcement in 
rolling back the Clean Power Plan, ``that regulatory power 
should not be used by any regulatory body to pick winners and 
losers.'' But, Mr. Secretary, that is exactly what you are 
doing here. You are distorting the market, damaging the 
environment, and delivering preferential treatment to favored 
industries. And at the end of the day, killing off competitive 
electricity markets just to save generation assets that are no 
longer economical will lead to higher prices to consumers.
    If you are truly concerned about reliability and resilience 
then the discussion we need to have should center around the 
nearly 90 percent of U.S. citizens in Puerto Rico and the U.S. 
Virgin Islands who are without power. The electricity grid in 
Puerto Rico and much of the U.S. Virgin Islands is badly 
damaged, and we must rebuild them to be stronger and more 
resilient than before Maria struck. We can't simply replace 
outdated infrastructure with the same materials and the same 
technologies as we did after Hurricane Sandy.
    And this is an opportunity to modernize the grid in these 
areas so they are more prepared for the next major storm that 
will inevitably strike. And all of this requires congressional 
action. And the Federal Government must now act so Puerto Rico 
and the Virgin Islands can rebuild stronger.
    This morning, after seeing the President's latest Tweet, I 
am concerned that the President simply does not understand the 
scope of the devastation in Puerto Rico and will follow through 
on his threat to remove FEMA from the island well before it 
actually has recovered.
    And, finally, I know Chairman Walden mentioned this a 
little earlier, I continue to be concerned by the amount of 
money this Administration is spending when it comes to non-
commercial travel for members of the cabinet and his staff. 
When the reports first came to light regarding your colleagues 
at HHS and EPA, I asked the inspector general at those agencies 
to conduct an investigation, and they agreed. And those 
investigations are taking place.
    But today, in light of the $50,000 you spent in taxpayer 
dollars for non-commercial travel I am making a similar request 
to the Energy Department's Inspector General. And this is of 
particular concern, given the extreme budget cuts that the 
Trump administration proposed for the upcoming fiscal year, 
including successful programs that help everyday Americans. I 
know that Chairman Walden mentioned it today, but he also 
mentioned it at one of our markups earlier this week, that this 
investigation is something that the committee will look into. 
So I appreciate that, Mr. Chairman.
    So, Mr. Secretary, I appreciate your willingness to testify 
before our committee today, and hope to work with you going 
forward. This type of hearing is critical to making our 
government work better. And I hope we will see you here again, 
and hope we will see some of the other cabinet secretaries and 
agency representatives as well.
    Thank you. I yield back.
    Mr. Upton. The gentleman yields back.
    At this point, we will welcome the Secretary's testimony. 
It is made part of the record in its entirety, and we will let 
you summarize it. And following that, we will do questions from 
the dais.
    So, welcome again. Thank you. Turn that mic on.

    STATEMENT OF THE HONORABLE RICK PERRY, SECRETARY, U.S. 
                      DEPARTMENT OF ENERGY

    Secretary Perry. Ranking Member Rush, I am privileged to be 
in front of you and the other members of the Committee. I am 
proud to be able to represent this Administration in front of 
you. Proud to represent the Department of Energy. It has been a 
couple of months since I appeared before Congress, and I want 
to take this opportunity to highlight the progress that we made 
towards achieving our goals at DOE. I will make every to be 
brief, sir, as we go forward with my oral comments, and 
respectfully request that my full remarks be inserted in the 
record.
    I would like to start this morning by mentioning how 
refreshing it is to see a subject, energy policy, that has so 
much bipartisan support in, in this Congress. This committee 
has been a strong partner to the Department of Energy over the 
course of the years. And I look forward to working together 
with you to enhance our energy security and further our 
national interests.
    Since taking office, my priorities for DOE have focused on 
reorienting the Department of Energy on its core missions: 
ensuring American energy security; spurring innovation; 
enhancing national security; and addressing the obligation of 
legacy management and nuclear waste. We are making solid 
progress towards these goals, but there is much to be done. 
There is a distinct role for Congress to play in supporting our 
work, and I look forward to our ongoing cooperation.
    Our work together on energy and security policy is 
paramount for America to exert leadership necessarily both here 
at home and aboard. Let me talk for a moment, if I could, about 
America's energy security.
    America's economic and national security depends on our 
energy security. We are putting the United States in a more 
stable and secure position to address the domestic energy needs 
by establishing reasonable and reliable energy policies. We 
realize that energy security begins at home. We have taken 
concerted steps to address years of insufficient action 
regarding grid resilience and reliability.
    The Department addresses not only manmade challenges to our 
grid's reliability, but those of national disasters as well. 
The Department has played a critical role in the coordinated 
federal response to recent natural disasters. We have been in 
almost daily contact with our industry partners since Hurricane 
Harvey began to threaten the Gulf Coast. And that coordination 
continues till through to today.
    We currently have more than two dozen technicians from DOE 
and the Western Area Power Administration in the Virgin 
Islands. We will have almost 30 in Puerto Rico in the coming 
days. We will continue to support the work to restore power in 
the Virgin Islands and Puerto Rico.
    Not only are we dedicated to our recovery efforts in the 
south and the east, but we are also turning our focus to the 
west. We are working closely with our partners in California 
who are now facing some historic impacts of these recent 
wildfires.
    And I would like to switch over to and speak about 
innovation just a moment, if I could, and DOE's role in 
innovation and advancing science, which is a key part of our 
mission.
    As Chairman Walden mentioned, we had our 40th anniversary 
of the creation of DOE yesterday, 40 years of energy 
innovation. And that is a perfect description of what Doe has 
been doing since its inception in 1977. The energy security we 
Americans enjoy and take for granted would not have been 
possible without American ingenuity and clear focus on 
innovation, Leader Rush, as you, as you point to in your 
remarks.
    I am very proud of the advancements that DOE research and 
development has spurred, and much of it from our national labs 
system. Our national labs have put a distinctly American stamp 
on the last century of science. In fact, nearly a third of all 
Nobel Prize-winning work in the fields of physics and chemistry 
are DOE associated or sponsored. And that is a pretty 
impressive show from my perspective of the investment that you 
all have made in the labs in the previous years.
    Let me switch over to the national security issue through 
nuclear science. And I want to touch just briefly what I think 
is an incredibly important issue facing our Department today, 
and that is nuclear security. As a member of the National 
Security Council I have a unique and a vital role in ensuring 
our nation's security. And I undertake these responsibilities 
with the utmost gravity.
    For more than 70 years a cornerstone of our national 
security strategy has been a credible and reliable nuclear 
capability. This strategy has served the United States and our 
allies well. Our work on non-proliferation is equally 
important. The Department's national security--or, excuse me, 
National Nuclear Security Administration is a leader in our 
nation's efforts to ensure nuclear weapons and materials do not 
fall into the hands of rogue regimes or terrorists. In short, 
we seek to deny nuclear capability to those who are not 
friendly to the United States while reinforcing the America 
idea that we are a steadfast ally to peaceful nations.
    Let me shift over to legacy management, if I may, and the 
nuclear waste issue. The national security mission comes with a 
final responsibility, and it is the Department's environmental 
management side. Every secretary of energy upon confirmation is 
met with the size and the scope of the Department's cleanup 
mission. It is staggering in its scope and its size. It is our 
solemn obligation to clean up the environmental legacy of the 
weapons programs, the sites, the communities that helped us win 
World War II and the Cold War.
    My direction has been to put DOE on a final path to 
achieving the cleanup mission across our enterprise, more safe, 
more streamlined, sooner, and at less cost to taxpayers. There 
is more work to be done. And we will need Congress' assistance 
in order to achieve our environmental, our environmental 
management goals in streamlining state regulations.
    The Department of Energy from my perspective has another 
obligation, a moral obligation to advance solutions for the 
long-term disposal and storage of spent nuclear fuel and high-
level waste. The American people deserve a solution to this 
problem, and we can no longer kick the can down the road.
    I would like to commend this committee for the leadership 
on this issue. This committee's bipartisan approval of a 
nuclear waste policy bill by an overwhelming 49 to 4 vote 
stands as a clear example to the American people that we can 
work together and look forward to finally finding a path 
forward.
    Mr. Chairman, if I may, to address Chairman Walden's issue 
of this travel issue that has cropped up and been in the media 
and what have you, and I want to address it straight on. As a 
former governor of a fairly good-sized entity, I totally 
understand the idea of having oversight on travel to spend our 
money appropriately, thoughtfully.
    I was the Agriculture Commissioner of the State of Texas 
for an 8-year period of time. Southwest Airlines does not go to 
Dumas, Texas. And so, there are multiple ways you can get 
there. You can drive. Boy, it takes a while. I guess you could 
take the bus. I suppose you could even hitchhike. You can get 
there, but you are not going to get much work done.
    And the point is, a lot of these jobs are different from 
the standpoint--and DOE is kind of unique in that sense, and 
when Leslie Groves was choosing the places to start national 
labs and to do the Manhattan Project he wanted to go places 
that were pretty difficult to get to. Hanford is one of those. 
And when you think about where our national labs are and the 
places that I have been required to go, and will continue to go 
to do my job.
    And I might add, during my confirmation hearing in front of 
senators and then, obviously, going and speaking to a number of 
you, almost every member invited me to come to their district, 
to come see what you have in your district, to see what you 
have in your district. And I am obliged to do that. And so it 
is going to require travel.
    One place I went, Mr. Pallone, and this is in the report 
that you have, I was invited and accepted to go to a mine that 
is dealing with rare earth minerals in Hazleton, Pennsylvania, 
with another stop the next day to spend in the entirety of that 
day in Portsmouth, Ohio, with the senator. And the point is it 
is really difficult for us to have gotten there without taking 
that private aircraft to Hazleton. You can get there. I am not 
going to tell you you can't. But to conduct the business, and I 
think we have looked at this closely, we have been thoughtful 
about how we did it.
    I am a frequent flyer on Southwest Airlines and United. And 
the last time I was on United I think I was on seat 10B. And 
there is nothing wrong with seat 10B. It is a good place to be. 
It gets there about the same time as 1A. But the point is I 
travel a lot to do my job. I do it in a way that I think is 
thoughtful, with the taxpayers in mind. I did it for 30 years 
as a House member, as the Agriculture Commissioner, as the 
Governor of Texas, and now as the Secretary of Energy. And I am 
going to continue to do my job. I am going to make my 
commitment to you that I am going to try to do it in the most 
thoughtful and the most reasonable way to do that, but 
realizing that from time to time if I am going to be in those 
places, and we are going to be there in a timely fashion, we 
may have to do it in a way that does expend some, expend some 
taxpayers' dollars.
    But I hope at the end of that process they can look back 
and say, you know what, these folks did a good job of expending 
our dollars and getting the job done. And I think that is 
really the goal here.
    So let me just finish by saying to each of you thank you 
for allowing me to come and to inviting me to share my vision 
of what DOE's opportunities are in the future. I look forward 
to working with every member of this committee. Gene Green and 
I have been working together now for coming on long time, 35 
years or so. And we will continue to be a partner with each of 
you as we find the places that we can serve the American 
people.
    And, again, thank you for your service. Thank you for your 
standing up and saying that you are willing to sacrifice much 
to serve this country. Thank you, sir.
    [The prepared statement of the Honorable Rick Perry 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Upton. Thank you, Mr. Secretary. We appreciate your 
testimony. At this point, we will engage in questions, 
alternating between Republicans and Democrats for the short-
term here.
    So, Mr. Secretary, as you know, the grid resiliency in the 
Notice of Proposed Rulemaking that was issued 2 weeks ago has 
attracted lots and lots of attention. In August, DOE's staff 
report recommended that FERC expedite its efforts with the RTOs 
and the ISOs to improve energy price formation.
    So I have two quick questions. What prompted DOE to act 
under Section 403? And, would it be fair to say that DOE 
exercised its authority under Section 403 because there is a 
level of urgency that wasn't perhaps being addressed elsewhere?
    Secretary Perry. Mr. Chairman, the base reason that we 
asked for FERC to take a look at this and to act is that for 
years this has been kicked down the road, if you will. Mr. 
Olson has been, in his time of being in Congress has looked at 
this issue, as a number of you have. But Pete and I have had 
this conversation about the resiliency, the reliability of our 
grid, and making sure.
    And I give you one good example. Those of you who are from 
the Northeast--well, let me back up before I go in.
    One of my great concerns as the Governor of Texas back some 
years ago before we were making the transition to substantially 
more and cleaner generation of power, kind of in between the 
shale gas revolution and getting those plants built, we had 
some brownouts in Dallas, Texas, and Central Texas, and parts 
of the State of Texas. And when it gets to be 108 degrees and 
your grandmother's house loses electricity there are some 
people calling the governor going, ``What in the hell are you 
doing?'' or ``Why haven't you taken care of this?''
    And one of the things as an elected official, I never 
wanted to have to explain to somebody why we didn't have the 
vision to put into place a reliable and resilient electrical 
power system. And we started working really hard in ERCOT, 
which is our grid there in the State of Texas, and I think we 
put in place both the generation and the distribution to be 
able to never have to have that call.
    And when the polar vortex came into the Northeast back in 
2014, and that event occurred, I don't think any of you want to 
have to stand up in front of your constituents and explain to 
people why the decision had to be on turning our lights on or 
keeping our family warm. And so making sure that there is that 
resiliency there, that there is that fuel on, on the ground, on 
the plant facility itself I happen to think is really 
important, not only from a personal security standpoint, just 
if you will, your citizen, but also from a national security 
point and those military bases that are in that, in that part 
of the world.
    So, with that as a background, Mr. Chairman, I think having 
this conversation, and that is what I wanted to do, as I, as I 
got into this and I started taking a look at it and grasping 
this issue better I realized that one of the ways that we could 
have this national discussion was to send this forward for FERC 
for them to consider.
    Mr. Upton. Do you know what their timetable is going to be?
    Secretary Perry. Sir?
    Mr. Upton. Do you know what their timetable is going to be?
    Secretary Perry. I don't.
    Anybody have a timetable?
    Mr. Upton. I know they are an independent agency but I 
just----
    Secretary Perry. Sixty days is I think the----
    Mr. Upton. So, the recent hurricanes, they raised the 
importance of energy security. We are all very, very troubled 
with what has happened. Earlier this year Mr. Rush and I passed 
a bipartisan bill, it was H.R. 3050, Enhancing State Energy 
Security Planning and Emergency Preparedness Act. The bill 
reauthorizes an important program that helps states prepare for 
hazards such as hurricanes.
    What has the State Energy Program and the State Energy 
Assurance Planning played in the recent hurricane response 
efforts?
    Secretary Perry. Well, we learn something new in every 
disaster. That was one of my lessons as the Governor of the 
State of Texas for 14 years, and we had a number of major 
events, none as impactful as Harvey. I don't believe during 
that 14-year period of time there was a storm of any greater 
consequence for Florida than Irma, and certainly what Puerto 
Rico and the Virgin Islands are facing today. But each of these 
we learned a new lesson in.
    And I think it is important for the governors of those 
states to come forward working with our counterparts at FEMA, 
at the other agencies of government that are dealing with this 
to give us new ideas and to, hopefully, bring forward here are 
solutions, here is something you had never faced before.
    Puerto Rico is a very, very unique challenge. I will give 
you one example. When Texas and Florida, or any other state for 
that matter, you could preposition your utilities. And just as 
an aside, each of you have utility companies in your districts. 
The men and women who volunteered, and in many cases to go into 
harms way into Texas, into Florida, and pre-position and go in 
and get that electric power back on in record time. There were 
some 60,000 utility workers in Florida. I hope you will pass on 
to them your great respect for the work that those utility 
workers did. This is, it was herculean from my perspective.
    But I think it is really important for us to take these 
lessons learned and then forward them so that the Federal 
Government can be more efficient as we deal with the next event 
that occurs.
    Mr. Upton. I know my time has expired, so I will yield to 
the ranking member of the subcommittee. I just want to say that 
we intend to have a hearing in the next couple weeks as to the 
lessons that we may hopefully have learned----
    Secretary Perry. Yes, sir.
    Mr. Upton [continuing]. Based on these hurricanes.
    And yield to the ranking member of the subcommittee Mr. 
Rush.
    Mr. Rush. I want to thank you, Mr. Chairman.
    Secretary Perry, the NOPR you issued included the subtitle 
``NERC warns that premature retirement of fuel-secure 
generation, strength, and reliability, and resiliency in the 
remote power system.'' However, Mr. Secretary, the statement 
that was submitted by your own agency indicated that fuel 
diversity makes the grid more reliable. And the CEO of NERC 
testified before FERC in June saying, ``the state of 
reliability in North America remains strong and the trend lines 
show continuing improvement year over year.''
    Mr. Secretary, how do you arrive at the conclusion that 
plants with 90 days of on-site fuel are somehow more reliable 
and resilient than other sources of generation and, therefore, 
can receive additional compensation?
    Secretary Perry. Mr. Rush, thank you. One of the things 
that I think is really important is that your life experiences 
inform you about future events. And this is a great example of 
it. And I respect the FERC members' views that I think their 
picture is one that is a snapshot in time. There is blue skies. 
The sun is shining, the wind is blowing, the pipelines are 
carrying gas. All of those things are what we consider to be 
normal operating procedure.
    And in that scenario our grid is fairly reliable and it is 
resilient. But that is not the world that I have been asked to 
participate in is to oversee normalcy, is to oversee the 
everyday blue sky, wind blowing scenario. What I think one of 
my roles is is to think outside of the box.
    And when we talk about base load and we talk about--no one 
in the country was involved with developing wind energy in a 
greater way than I was while I was the Governor of the State of 
Texas. We created inside that state and helped develop more 
wind energy than is produced in five countries. And this 
happened during the 2000s. So my commitment to an all-of-the-
above energy strategy is not just some words and it is not just 
theory. There is a real track record of how we helped create 
the diversity.
    I brought that to the Department of Energy. The President-
elect when he asked me to come serve in this role knew that 
record of mine when I came here. And that wasn't going to 
change. I am still committed to an all-of-the-above. But the 
wind doesn't always blow. The sun doesn't always shine. The gas 
pipelines don't always, I mean they can't guarantee every day 
that that supply is going to be there.
    Mr. Rush. So are you saying then that the Chairman of NERC 
is operating his--and the study that was completed, done by 
your own agency came up with something new. Are you saying that 
your gut feeling presents a stronger rationale of this study 
that you would take the position that you are taking now? It 
seems to me that you are saying, well, my gut feeling has more 
priority. My gut feeling is something--rather than what the 
experts have said, I'm going off of my gut feeling. Am I 
reaching the right conclusion here?
    Secretary Perry. I can't answer with definitive what the 
conclusion is. But I can tell you that I think it is OK, you 
and I might disagree from time to time on a particular 
position. But I hope what we can agree upon is that the 403 
that I put forward was a way to kick start a national 
discussion about resiliency and about reliability of the grid.
    And best I can tell, we are pretty successful in doing 
that, sir. We are having this conversation now that we really 
haven't had in this country. And I think it is important for us 
to do it. We are not always going to agree. I am not going to 
agree completely with the FERC chairman. But I hope that we can 
have this very thoughtful, respectful conversation about making 
sure that no member of Congress has to stand up in front of 
their constituents explaining to people why the electricity 
wasn't on, why they weren't able to keep their constituents 
safe and comfortable in their homes because we didn't make the 
right decisions dealing with national energy policy to make 
sure that we have a broad, all-of-the-above energy strategy in 
this country.
    Mr. Rush. I yield back, Mr. Chairman.
    Mr. Upton. Thank you.
    The Chairman recognizes the vice chair of the full 
committee, the gentleman from Texas, Mr. Barton, for 5 minutes.
    Mr. Barton. Well, thank you, Mr. Chairman. Welcome, 
Governor, Secretary, friend. ADL leader at Texas A&M when I was 
at A&M.
    This is your first exposure, I think, to the House, first 
exposure to our committee. What you are going to find out is 
those of us that have an R by our name are going to tend to be 
a little more friendly. Those that have a D are going to be a 
little more frisky. But we are all on your side.
    Secretary Perry. Yes, sir.
    Mr. Barton. We all want a good, robust energy policy, and 
nuclear policy for America.
    Now, I have got questions about policy since the chairman 
has asked me on a bipartisan basis to put together an Energy 
Department reauthorization bill. And that is what we will focus 
on. But I want to put this thing about travel to bed.
    How many times have you flown on charter flights as 
Secretary of Energy?
    Secretary Perry. One.
    Mr. Barton. One. And that was to Hazleton, Pennsylvania; is 
that correct?
    Secretary Perry. En route, en route to Portsmouth, Ohio.
    Mr. Barton. And that was at the request of a member of 
Congress; is that not correct?
    Secretary Perry. Correct. And a member of the Senate.
    Mr. Barton. And to your knowledge you violated no federal 
law?
    Secretary Perry. That is correct.
    Mr. Barton. And you fully disclosed it to the appropriate 
sources within DOE and the accounting departments and all that?
    Secretary Perry. And in addition I might say ran it through 
all of the appropriate historic ways to get that approval.
    Mr. Barton. But you understand that generally we expect, 
just as we have to, as members of Congress, when we fly, when 
at all possible we fly commercial? We understand that. And I 
assume you understand that, too?
    Secretary Perry. Yes, sir. And I have been a, and I have 
been a good frequent flyer--
    Mr. Barton. All right.
    Secretary Perry [continuing]. With two airlines.
    Mr. Barton. Now I happen to know that you and your sweet 
wife Anita have a place up here, but you all have a place that 
you call home outside of Austin, Texas, and that on most 
weekends you like to go back to Texas. Is that not correct?
    Secretary Perry. That is my goal. I can't say that every 
weekend.
    Mr. Barton. I didn't say every weekend.
    Secretary Perry. We have some international travel as cuts 
into that from time to time.
    Mr. Barton. I understand.
    Secretary Perry. But my goal is to go back to Round Top, 
Texas, as often as I can.
    Mr. Barton. Just out of curiosity, when you go back to 
Round Top, Texas, what airline, how do you get from Washington, 
D.C., to Austin, Texas? What airplane do you use?
    Secretary Perry. Yes. I make Southwest Airlines pretty 
happy.
    Mr. Barton. Southwest Airlines?
    Secretary Perry. Yes, sir.
    Mr. Barton. That is the low fare----
    Secretary Perry. That's the company, that is the company 
plane.
    Mr. Barton [continuing]. Transparency airline. Yes.
    So how many times do you think you have used Southwest 
since you have been cabinet secretary?
    Secretary Perry. I have no idea. I am sure somebody has a 
record of it.
    Mr. Barton. But more than one? More than one?
    Secretary Perry. Oh, dozens of times, sir.
    Mr. Barton. I think we are OK if the Energy Secretary flies 
Southwest Airlines to Texas and flies commercial when at all 
possible, that every now and then when you are going to 
Hazleton, or Hanford, or Sandia or some, all the 17 national 
laboratories that are out in remote places intentionally, if it 
is expedient and doesn't violate federal law that on occasion 
you use a charter flight.
    And I think DOE has planes of their own. I don't know what 
the protocol for the cabinet secretary to use the planes is 
within your own agency, but there are government planes under 
your control; is that not correct?
    Secretary Perry. That is correct.
    Mr. Barton. OK.
    Secretary Perry. For instance, to get to Hanford, that is 
out next to Chairman Walden's district, commercial flight to 
Seattle. And then from Seattle down to Hanford is, is a pretty 
good hike. It is on the very----
    Mr. Barton. And if a reporter wants to catch you catching a 
flight he has got a better shot at catching you at the 
Southwest Airlines counter than at some jet----
    Secretary Perry. I think there are multiple pictures of me 
on the Drudge Report that showed me at Southwest Airlines 
reading the Drudge Report.
    Mr. Barton. And it is OK to fly American. We will let you 
fly American, United.
    Secretary Perry. Yes, sir. And I----
    Mr. Barton. But Southwest is basically Dallas, Texas.
    Secretary Perry. And I have been on all of those. I have 
been on all of those carriers as well.
    So, Mr. Chairman, I think the real key here is what I 
shared with Mr. Pallone, is that my intention will be to be as 
sensitive to this as we can be. And I totally respect Congress' 
oversight capacity here and what have you. And what I would 
offer you, sir, is that I think you sent a letter asking for 
the breakdown of the travel. And what I would like to do, with 
your permission, is direct the agency as well to look back at 
the previous secretary's travel in recent memory to look and 
see if our travel is pretty much in line with what Secretary--
--
    Mr. Barton. Look at Secretary Hazel O'Leary's travel on 
party jets.
    Secretary Perry. That may be a, that may be a----
    Mr. Barton. Internationally. And do not do what she did, 
Mr. Secretary.
    Secretary Perry. But I think----
    Mr. Barton. My time has expired.
    Mr. Upton. The gentleman's time has expired. At least, at 
least if you continue to fly Southwest, no one will accuse you 
of flying first class.
    Secretary Perry. Well, now that is an argument that could 
be made, sir.
    Mr. Upton. OK.
    Mr. Barton. Well, hopefully he gets in Boarding Group 1.
    Secretary Perry. Southwest is a first class airline.
    Mr. Upton. Or A, Boarding Group A, A1 to 30.
    Mr. Barton. I have questions for the record, but I will 
submit them.
    Mr. Upton. The gentleman's time has expired.
    The Chair will recognize the Ranking Member of the full 
committee, Mr. Pallone from New Jersey.
    Mr. Pallone. Thank you, Mr. Chairman.
    I wanted to ask you about Puerto Rico, Secretary.
    Secretary Perry. Yes, sir.
    Mr. Pallone. As of yesterday afternoon it is estimated that 
only approximately 10.6 percent of Puerto Rico's residents have 
electricity. And this number actually represents a decrease, 
because in recent days I guess there was a fault on a 
transmission line.
    But I believe it is our responsibility to fully help the 
people of Puerto Rico and the U.S. Virgin Islands as they work 
to repair their damaged electricity grid. And it is important 
that we remember that these are American citizens who are 
without power. Judging by the President's tweets this morning, 
I am not sure he fully grasps that fact because he seems to be 
talking about Puerto Rico as if it were some foreign country 
where we have deployed humanitarian aid.
    But, look, I know that DOE has staff on the ground. You 
stated in your written testimony that more than two dozen 
technicians from DOE and the Western Area Power Administration 
are on the ground working to restore power. But there are three 
other power marketing administrations across the country under 
the auspices of DOE. They are models are how the Federal 
Government can be helpful in providing power to U.S. citizens.
    Are there any technicians or staff from either Bonneville, 
Southeastern, or Southwestern Power Authorities in Puerto Rico 
or the Virgin Islands? And if not, are there any plans to 
deploy additional personnel from these other PMAs?
    Secretary Perry. Yes, sir. Well, certainly, we are not 
interested in pushing people out just for the sake of pushing 
people out just to check off a box that says, we have people 
there. So, I think a thoughtful approach to this, which I am 
quite comfortable that we have a thoughtful approach to this.
    And one of the things, Mr. Pallone, that I will share with 
you is this is a really different disaster. As I shared with 
the committee in my previous remarks, every disaster is 
different in some way. Puerto Rico is very, very different for 
a lot of reasons, the least of which is not that, that the 
electric PREPA, the public utility company in Puerto Rico, was 
already in bankruptcy months before this storm ever hit. So 
this storm really complicated the issue.
    And I don't want to----
    Mr. Pallone. No, that is all right. I appreciate it.
    Secretary Perry [continuing]. Use up time to go over all of 
that.
    But the point is we have got the Corps of Engineers, and 
the first time in my memory--and you may know better than me--
but the first time in my memory that the Corps of Engineers has 
been pushed into place to get this re-build going.
    Now, I also know that there are a substantial amount of 
private sector utilities that are ready, willing, and able to 
go into Puerto Rico as well as the contracting process occurs 
to get that country back. But from early on we said this is not 
going to be like getting Texas electricity back on or getting 
Florida's electricity back on. This one is going to be a 
challenge.
    The commitment from this Administration, and certainly from 
DOE, is to do this thoughtfully, look at it, and make a 
decision about what is the best rebuild and from the standpoint 
of improving their, the infrastructure there so that when the 
next storm comes--and there will be a next storm sometime--that 
we don't have the same result.
    Mr. Pallone. I just want to get to a second question. But 
if you could get back to me through the chairman about where 
there are technicians or staff from these other power marketing 
administrations.
    Secretary Perry. OK. Yes, sir.
    Mr. Pallone. Or if there is some way to employ them so that 
they are there if they are not. OK?
    Secretary Perry. Yes, sir.
    Mr. Pallone. The second question I have, and I have to go 
through this quickly, is that many--it goes to the Notice of 
Proposed Rulemaking--many companies have been retiring or 
others proposing retirements of their coal and nuclear fleets 
simply because it makes the most economic sense. And there are 
marketplace dynamics that completely contradict the premise 
behind DOE's Notice of Proposed Rulemaking to FERC. And the 
staff report on electricity markets and reliability issued by 
DOE in August does not support the basis of the NOPR.
    So, the NOPR is short on details as to how this proposed 
rule would work, even though it proposes or completely changes 
how wholesale electricity markets operate. And my question is 
you have called the DOE national labs current tools, you have 
relied on them to prepare the DOE grid study that did not 
recommend the approach you are now taking through the NOPR on 
grid pricing. What specific analysis or model runs did you have 
the national labs or the Energy Information Administration 
prepare to determine the full impacts of your proposal before 
it was released?
    I am just concerned that this data differs compared to the 
data used in the DOE grid study issued in August. To what 
extent did you take into consideration these other suggestions 
that seem to contradict your proposed rulemaking?
    Secretary Perry. I am not sure I consider them to be 
contradictory. I don't know whether or not in my perspective 
that the grid study that we put forward earlier in the year 
addresses with specificity the events that I am concerned 
about. And the events that I am concerned about--and I don't 
want to go back and beat this horse again--but a polar vortex 
that we had in 2014 that had the potential to be devastating to 
the Northeast. The idea that those, those nuclear and those 
coal plants should be part of that mix, I happen to think they 
should be.
    I can make the argument that if you lose those coal fields 
in the northeast and you lose the ability to have the power 
that they currently produce, you can never replace that. You 
can't do it in certainly a timely way.
    And so my point with this is I want to drive this 
conversation because, as Mr. Olson and I had discussed earlier, 
this has been talked about a lot but there hadn't been any 
action. And I want to try to push the FERC and this country to 
take action so that we don't face that event in the future 
where people's lives are put in jeopardy or where this 
country's national security is jeopardized because we just 
refuse to buy in to the concept that we needed a very diverse 
energy portfolio. That's really at the basis of this, Mr. 
Pallone, is that I wanted this country to go through exactly 
what we are going through right now, which is an open, 
thoughtful conversation about our grid resiliency and 
reliability.
    Mr. Pallone. Mr. Chairman, can I just ask if he could get 
back to us with any analysis or runs that they had the national 
labs or the Energy Information Administration prepare before 
their proposal was released?
    Mr. Upton. If you could provide that for the record, that 
would be great.
    Secretary Perry. Yes, sir.
    Mr. Upton. Thank you. The chair would recognize the vice 
chair of the subcommittee, Mr. Olson from Texas.
    Mr. Olson. I thank the Chair. Howdy, Governor Perry. I am 
so sorry. Fourteen years as my governor; it is a hard habit to 
break. Howdy, Secretary Perry.
    Secretary Perry. Yes, sir.
    Mr. Olson. You come aboard, my friend, at a very historic 
time. Power sources are changing rapidly. To handle these 
changes you proposed that FERC act as the power, to provide 
power sources with a slight preference for nuclear or coal. You 
said you wanted to start from the base. Well, my friend, 
mission accomplished.
    The response from our friends in Texas and across the 
country, kind of makes you feel like the Aggie of all Aggies, 
Colonel Earl Rudder, A&M Class of 1932, climbed those cliffs at 
Pointe du Hoc with fire coming down all around him.
    A friend of ours, a big energy firm in Houston, said, ``The 
Administration has declared war on natural gas.'' And attacks 
are coming that say you prefer government control over the free 
markets. We both know that is a pile of Bevo Longhorn poo-poo.
    We both know from being with each other for 30 years in 
Austin, Texas, there has been no bigger proponent of the free 
market for energy than Governor Rick Perry. You, as our 
governor, fostered the shale boom at the Barnett shale plate 
outside of Fort Worth. As our governor, you made Texas number 
one wind power in America and the world.
    The South Texas Power Plant, nuclear plant in Bay City, 
took a direct hit from Hurricane Harvey. Never flickered. Power 
kept flowing. But 90 miles north of there in my district, the 
Paris Power Plant has eight generators--four coal, four natural 
gas--had to shut down all four coal because days of rain got 
the coal all wet. Again, you have done your whole life to 
support a diversified American portfolio for energy.
    I just want to ask you, can you talk about the biggest 
problems you face, what you are trying to change for the 
markets today? What are you trying to address with these 
changes?
    Secretary Perry. Well, you said it very succinctly early 
on, and that is for us to have this conversation which we are 
doing. I think the idea that there is a free market in 
electrical generation is a bit of a--not a bit of a fallacy, it 
is a fallacy. Every state regulates the energy industry; that 
is the reason we have a PUC. There are different phases, there 
are different states of regulation. And each state has to 
decide which is the best one.
    Back in the late 1990s, I believe it was in the late '90s 
we decided we were going to start a deregulation of the 
electrical industry in the State of Texas. And, basically, what 
deregulation means is competition. I mean that is the issue 
there is to let these companies be more competitive and less 
regulated by the state government in this case.
    And so the previous administration, I think it is fair to 
say, they had a particular philosophical favorite in the energy 
industry. And they put their thumb on that scale. I think there 
is probably multi-decades of either disregard or whatever, and 
I am not going to sit here and tell you I know why the nuclear 
energy industry was disregarded the way that it was, but here 
is the challenge that we have in this country today on the 
nuclear side of things: if we are going to continue to be a 
leader in nuclear energy in the world, we have to support this 
industry in this country.
    And the question, Mr. Chairman, is do we have a national 
security interest in the nuclear industry? And I think the 
answer is yes. And if we do, then we have to make sure that we 
are supporting that industry. Because if we don't, if we lose 
our supply chain, if we lose our intellectual chain of supply 
of bright scientists because we basically pushed the nuclear 
industry back, then we are going to lose our role as a leader 
when it comes to nuclear energy in the world. And that in turn 
is going to affect our ability to address the weapons side of 
it.
    So, these are all interconnected. And I think making sure 
that we have an all-of-the-above energy strategy that is as 
free market as it can be, Pete. You are correct. But the idea 
that there is a free market in the energy industry is a 
fallacy.
    Mr. Upton. The gentleman's time has expired.
    Mr. Olson. One request, sir. Beat LSU.
    Yield back.
    Secretary Perry. All right.
    Mr. Upton. The gentleman's time really has expired now.
    The chair recognizes the gentleman from California, Mr. 
McNerney.
    Mr. McNerney. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary. I want to thank you for your interest in veterans' 
issues.
    Secretary Perry. Yes, sir.
    Mr. McNerney. And look forward to collaborating with you on 
that.
    I do want to say up front, though, that your budget 
proposes deep cuts in programs I care deeply about: energy 
efficiency, energy reliability, science, ARPA-E, innovative 
technology and loan guarantee, and energy storage. Now, these 
programs I feel are necessary for our nation's economy and our 
national security.
    So let me ask you this: do you think that climate change is 
any way a threat to our nation?
    Secretary Perry. Yes, sir, I do. And if I could--go ahead 
and ask questions and I will----
    Mr. McNerney. Well, that was my question.
    Secretary Perry. Yes.
    Mr. McNerney. Well, OK. I mean, do you see a relation 
between the weather events we have had and climate change?
    Secretary Perry. Most likely. Yes, sir.
    Mr. McNerney, before we take a lot of time on this issue 
let me just say that we are probably going to agree that it is 
happening. We are going to agree that it is going to have an 
effect on the globe. I think where we may or may not agree is 
just how much of this is man's fault in our decisions that we 
are going to make here.
    I don't believe that we need to be making decisions that 
could put America at a disadvantage around the globe making 
decisions that we think might have an impact on climate change. 
I was in the Senate and one of the senators said that manmade 
climate change--or excuse me, climate change was 100 percent 
man's fault. I don't believe that. I don't believe that climate 
change is 100 percent man's fault.
    Are we having an impact on it? Absolutely. Can we make a 
difference? You bet. Just like we did in the State of Texas 
where NO<INF>x</INF> went down 60 percent, SO<INF>x</INF> down 
50 percent. We had 19 percent decrease in our carbon footprint. 
At the same time, we led the nation in the production of job 
creation.
    So, you can have economic growth and address your climate 
in a positive way. And I hope that is what we all can work on 
together.
    Mr. McNerney. We can. But it seems to me that the risk of 
climate change is bigger than the risk of reducing carbon 
emissions. There is a pretty good tradeoff in my mind about 
that.
    But let me go on to the next question. In your remarks you 
mention the DOE's role in innovation and advancing science, but 
your budget calls for a 16 percent reduction in science. Can 
you explain that?
    Secretary Perry. Yes, sir. I am going to give you a little 
higher level observation here about budgets. I have done 
budgets since 1985 as a member of the Appropriations Committee 
in the State House. I was an agency head for 8 years, and I was 
the Governor of Texas for 14 years. In the early part of every 
session--and we only met 140 days every other year, so it is a 
really cool concept but the governor put a budget forward.
    Generally the governor's budgets were pretty good 
doorstops. Now, I am not saying that that is how you all look 
at a president's budgets, but what I will tell you----
    Mr. McNerney. Well, OK.
    Secretary Perry [continuing]. I know how this process 
works.
    Mr. McNerney. Thank you for that observation, Mr Secretary.
    Secretary Perry. Yes, sir.
    Mr. McNerney. We had a hearing last week of energy 
producers. And every single supplier said that the market 
should value their product fairly and be open to competition, 
and that that would give the best result in terms of 
reliability and resiliency. Do you agree with that?
    Secretary Perry. In the, what is the right word, in the 
mythical world I would agree with that. In the real world that 
is not the case. As I shared with Mr. Olson, I don't think that 
you have this perfect free market world. And, I mean, we 
subsidize a lot of different energy sources. We subsidize wind 
energy. We subsidize ethanol. We subsidize solar. We subsidize 
oil and gas. And so the question is how do you make it as fair 
as you can?
    And we are probably going to argue about that. Mr. Chairman 
Upton and I would probably have some disagreements about the 
perfect way to put a system into place. And that is what we are 
doing here. And that was really kind of my goal with this 403 
is to get us to talking about the whole idea and the 
understanding that we have subsidized the energy industry for a 
long time. And I don't, I frankly don't have a problem with 
that.
    If the concept of a free market is you are not going to 
have any impact except the market, I mean supply and demand, 
straight-up, pure, I don't know if I want to bet my 
grandmother's or someone's grandmother's safety and security on 
whether or not the lights are going to come on on a pure, 
totally and absolutely unregulated market.
    Mr. McNerney. And I am interpreting this as saying that the 
FERC should not be fuel neutral in a real world.
    Secretary Perry. I am saying----
    Mr. McNerney. My time is up. So I should yield.
    Secretary Perry. Yes, I am saying FERC ought to have a open 
conversation with all of us about how do we make sure that we 
can keep electricity as affordable and accessible as we can, 
and at the same time making sure that the reliability and the 
resiliency of that grid is in place so that if there is another 
polar vortex and if this whole climate issue and these storms 
and all of this goes into your line of thought process here, we 
are probably going to have another one. And if we are, 
shouldn't it be our responsibility to make sure that when your 
constituents flip the lights on that they are not having to 
make a difference or decision between staying warm and having 
lights.
    Mr. Upton. The gentleman's time has expired.
    The chair would recognize the gentleman from Illinois, Mr. 
Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Secretary Perry, let me start by thanking you and 
acknowledging your words in the recent letter you sent to me 
regarding our nation's nuclear waste management program. I 
share your sentiment that the Federal Government's inability to 
dispose of nuclear waste by the legal deadlines impact 
communities throughout our country. And the Federal Government 
has a moral obligation to reach a solution to this dilemma.
    We are advancing that very solution, as you mentioned in 
your opening statement. The full committee, we are in a 
subcommittee here, but our full committee passed out the 
Nuclear Waste Policy Act Amendments of 2017 with a vote of 49 
to 4. And I thank my colleagues for working with me to move the 
bill.
    This legislation provides the Department the tools to 
successfully complete the adjudication of the pending license 
for Yucca Mountain Repository, authorizes DOE to pursue a 
temporary storage program while the disposal facility is 
completed, allows a repository of the host state to 
constructively partner with DOE to mitigate potential impacts, 
and reforms the Nuclear Waste Fund to protect ratepayers who 
have already paid over $40 billion to the Federal Treasury for 
this program.
    Do you support resumption of the licensing proceeding for 
Yucca Mountain Repository concurrently with the reestablishment 
of the Nuclear Waste Program as required by the Nuclear Waste 
Policy Act?
    Secretary Perry. As I was sharing with Mr. McNerney that, 
when we were talking about budgets and governors' budgets and 
presidents' budgets and what have you, and there are certainly 
parts of that budget that I don't necessarily completely agree 
with. Hell, there were parts of my own budget when I was a 
governor I didn't agree with completely at the end of the 
process. But the point is I, I understand your role in this, 
and Congress' very important role in the budgeting process. And 
I respect it. And I am going to work within it.
    So, the President's FY 2018 budget requests the funding to 
re-start the Yucca Mountain licensing proceedings. And I think 
this is a really important point, that it is the licensing 
proceedings that this money is for. And I support that.
    The most important priority now is for Congress to 
appropriate the funding so that we can reopen the Nuclear Waste 
Program and finish the Yucca Mountain licensing. At the end of 
it, those that are against this, Mr. Chairman, I mean those 
that are against this they may find out through this process 
that they were right or that they are not. But until we get to 
the end of that process we are not going to know that.
    So, the sooner we receive this funding, the sooner our 
scientists and the lawyers can get to work.
    Mr. Shimkus. And then following up on the, obviously, the 
authorization language that we passed through this committee, 
you thanked us for that.
    Secretary Perry. Yes, sir.
    Mr. Shimkus. Do you feel that you are right, we are on a 
twofold track. Those in the media following me talked about 
this on the appropriation debate, and we are also on the 
authorization, how we move the program forward should there be 
a successful decision. Are you encouraged by the language in 
the committee's bill and that that will help the Department of 
Energy move forward in the interim and in the long-term, again, 
solution to this problem?
    Secretary Perry. Forty-nine to 4 vote is a pretty clear 
message, sir.
    Mr. Shimkus. Let me go on to, as you know, all Americans 
are paying the cost of the Department's inaction on disposing 
of spent nuclear fuel. Since President Obama illegally 
attempted to terminate the Yucca Mountain Program the overall 
taxpayer exposure skyrocketed from $12 billion to $30 billion. 
This is the judgment, this is kind of off book. This is money 
that we are spending that a lot of us don't talk about all the 
time.
    With another estimate due in the near future that will 
surely show another significant increase in incurred liability, 
every day American taxpayers pay millions of dollars to manage 
used fuel scattered around the country, while not working to 
dispose of the material. What specific actions do you propose 
to undertake to finally reduce these ballooning costs?
    Secretary Perry. Well, one of the things that I think it 
would be wise for us as a country, and certainly Congress too 
as a partner in this process, is find some alternatives. And 
whether it is at WIPP, whether it is at the site in West Texas, 
whether it is something in Nevada other than Yucca, there are a 
number of places, and maybe some sites that we haven't even 
talked about or we hadn't thought about yet, but that I just 
think I don't want to get stuck that it, Yucca is the only 
place that you can go, and if Yucca doesn't happen then, we are 
going to set here with 38 states having high level nuclear 
waste in various places around in their, in their states that 
are not secure that have potential for a disaster to occur, 
whether it is manmade or a natural disaster.
    And so that would be one of my observations and suggestions 
is that we really look at, as we go forward with this funding 
on the licensing of Yucca, at the same time look at the 
alternatives that are out there. Because, Mr. Chairman, you 
know this as well as anybody, we are going to require all of 
that space to handle this high-level waste that we have in this 
country.
    Mr. Shimkus. And, Mr. Chairman, I know my time has expired. 
I would just say that is one of the benefits of the interim 
option in the legislation allows us to start consolidating and 
reducing the multiple hundreds of locations down to a handful.
    I yield back.
    Mr. Upton. The gentleman's time has expired.
    The chair would recognize the gentleman Mr. Peters for five 
minutes.
    Mr. Peters. Thank you so much, Mr. Chairman. And thank you, 
Secretary, for being here today. We actually met in San Diego 
when you came to speak----
    Secretary Perry. Yes, sir.
    Mr. Peters [continuing]. To our Chamber of Commerce a few 
years ago.
    Secretary Perry. Yes, we did. Sure did.
    Mr. Peters. And I represent San Diego. As you know from 
your visit, is a large innovation economy. And I want to just 
express a little concern about some of the things I have seen 
out of the budget, maybe you have encouraged me by calling it a 
doorstop, but I would still like to hear your personal feelings 
on it, certainly with respect to the Advanced Research Projects 
Agency-Energy, or ARPA-E.
    This single program since it was created in 2009 has 
provided $1.5 billion in funding for more than 580 projects; 
led to the formation of 56 new companies; spawned 68 projects 
with other government agencies, including the Department of 
Defense; and attracted more than $1.8 billion in additional 
private sector investment. And you indicated up front that 
innovation and energy was one of your, was one of your goals. 
Why on Earth would we be talking about zeroing this out like 
the budget does?
    Secretary Perry. Mr. Peters, as I said in my remarks in 
front of the Senate, I didn't write this budget. And my job is 
to defend it, which from time to time is counter to what I 
think is good public policy. This happens to be one of those.
    As the government of the State of Texas, and President 
Trump, or then President-elect Trump knew that when he asked me 
to take this job, my history of working with the State of Texas 
being involved with emerging technologies and having a very 
thoughtful process in place with experts that looked at these 
technologies and then recommending to the governor and the 
lieutenant governor and the speaker, in the case of ours, 
whether or not these were places that we wanted to invest to 
try to bring those technologies to commercialization.
    I still think that is a really good and thoughtful and an 
appropriate thing for government to do, whether it is the state 
level or the federal level. So, let me finish by saying that 
this is a good conversation to have. Do we have it structured 
properly? Congressman Barton is going to be working on the re-
org over at the Department. I think we can find some solutions 
where we continue to push forward innovation where the 
government can identify new technologies, new innovation that 
can make a real difference in people's lives and help fund 
that.
    Is it exactly like the structure of ARPA-E? I will engage 
in the conversation and debate. But I think it is important for 
us to promote innovation.
    I will give you a good example. DARPA was created to make 
sure that America never gets surprised again in a conflict. And 
they have thrown a lot of Jell-O at the wall over there. And 
some really good, extraordinary things have come out of it. Did 
they bat 1,000? No. But there is not a bank in America that can 
say every one of our loans we made was a good loan and we got 
our money back.
    Mr. Peters. Mr. Secretary, I have to get into another 
question.
    Secretary Perry. Be smart about it. Have the right kind of 
oversight. And I think that the President would be supportive 
of having the right kind of oversight and having the right 
focus.
    Mr. Peters. I think what you said is very sensible. I 
appreciate your comparison to DARPA-E. That was the model. I 
mean DARPA, that was the model for ARPA-E.
    And when the utilities came in here and I asked them 
specifically what is the Federal role in in energy security in 
terms of grid efficiency and reliability, they said research. 
So I would just like to----
    Secretary Perry. Sure.
    Mr. Peters [continuing]. I would like to offer that as 
something that you can advocate for within the Administration.
    Secretary Perry. You are absolutely right, Mr. Peters. And 
that is happening at Idaho National Labs.
    Mr. Peters. Right.
    Secretary Perry. We have got that grid out there. We can go 
break things and not have to worry about----
    Mr. Peters. We know that the more nimble stuff sometimes 
happens outside on the DARPA model. And ARPA-E is that.
    Let me just ask one other question about the all-of-the-
above energy strategy. What role does energy conservation play 
as part of creating a supply? And is that something we should 
subsidize if we are subsidizing other energy sources?
    Secretary Perry. The answer in the broad sense is 
absolutely conservation plays a role. We have been able to make 
a difference.
    If you can put processes into place that save energy, that 
make it more efficient, then you certainly should do it. We can 
have the discussion, the debate about how you do that, that is 
really the devil is in the details about how you do that, but I 
do support the concept of conservation. It makes sense. And how 
we do it--one of the things that I learned as a governor is how 
do you incentivize people?
    We were able to clean up our air in Texas so much partially 
by giving some tax credits to people for switching over from 
older, dirty-burning diesel-type engines to newer, more 
efficient ones. And that really helped on the fleets. So I 
think that rather than subsidization that some people go, oh, 
that is not government's role, there may be some thoughtful 
ways working with state and federal governments to come up with 
incentives to get people to change their----
    Mr. Peters. My time is up.
    Secretary Perry. Yes, sir.
    Mr. Peters. But some people say those tax credits are 
subsidies, too, so.
    Mr. Upton. The gentleman's time has expired.
    The chair would recognize the gentleman from West Virginia, 
Mr. McKinley.
    Mr. McKinley. Thank you, Mr. Chairman. Sorry, was disrupted 
there just for a minute.
    Mr. Secretary, welcome.
    Secretary Perry. Yes, sir.
    Mr. McKinley. And it is a delight that you are here. And I 
am particularly appreciative of you continuing this discussion 
because we have had five or six hearings on this topic through 
this, this summer. And so it is really important for you to put 
a punctuation mark on this.
    For the record I guess I should say, I don't see any 
daylight between you and me on this subject, particularly as it 
relates to reliability. I am 100 percent behind what your 
position is on that to give us a reliable grid system for this.
    And I am coming from the area that is gas. Forty-two 
percent of all the gas produced in America comes from this 
region that I represent, part of which is Marcellus and the 
Utica gas shales. So I am very concerned about the reliability 
of this.
    So I want to go back. Your views and other people have 
talked a little bit about the polar vortex of 2014. And I was 
here during a lot of that discussion during that period of 
time. And I think people need to remember what elements were 
like. Because in 2014 after that they came here, FERC came and 
testified before us that we came within one small power plant 
of having a blackout on the East Coast.
    Secretary Perry. Yes, sir.
    Mr. McKinley. By talking about 500 megawatts for a small 
power plant. Since 2014 we have had 34 coal-fired power plants 
close down since that period of time. Now, we have tried to 
replace them with gas and wind and other things. And that is to 
the credit of the utility companies.
    But your own analysis coming from staff and otherwise has 
said that during that polar vortex 22 percent of the power-
generating capacity in the PJM market was lost during that 
period of time, and 55 percent of that was in gas-fired power 
plants. So I am concerned about if we think we are going to get 
reliability simply switching over to gas when we found out 
there are some issues with that. And that is why I am very 
supportive of you. I want to see us spend more research dollars 
in defining the ways to make gas more reliable, and find ways 
that we can have gas have that 90-day supply on site within, 
inside the fence, to be able to do that.
    So I am alarmed that people are ignoring what is already 
here that we have, as we have got the nuclear, which is by far 
the most dependable supply we have: once you turn it on you are 
good. And then follow with coal.
    So I am concerned also with the fact that people don't seem 
to recognize that since the polar vortex that we have still 
continued to have forced outages at our gas-fired power plants 
that I think we have to do a better job trying to help them 
find ways that they don't have these power outages. But 94 
percent of all the outages in our gas-fired power plants, or 
excuse me, 94 percent of all the outages come from gas-fired 
power plants. I think we can do a better job.
    So, in the time frame that I have left for you, if we had a 
polar vortex occur in the next couple of months in this country 
can you paint the picture of what we might be subjected to 
under the current circumstances?
    Secretary Perry. Well, I am not sure I want to paint that 
picture and unduly scare the people of this country. I think we 
need to be responsible. I think we need to be really mature in 
the conversations that we have with the people of this country.
    And I go back to I don't want any of you to have to stand 
up in front of your constituents and try to explain to them why 
they did not have power, whether it is a 108-degree day in 
Dallas, Texas, or whether it is a substantially below freezing 
day in New York City. And I think any of us really know in our 
hearts that if you have a diversified portfolio you will be 
able to serve better than if you have a limited. We saw that 
back in Texas in the early 2000s when gas went to $14 an Mcf.
    Mr. McKinley. So, Mr. Secretary, don't you think then if 
FERC were to follow through with your mission don't you think 
we would have a better outcome?
    Secretary Perry. Well, I do. But, that is why we are having 
this conversation here, I want to hear both sides of this and 
to have a very robust and open conversation. But I am very 
comfortable that having this diverse portfolio of energy, of 
hydro, of coal, of nuclear, of wind, of solar, of bio makes 
abundant good sense.
    Now, do I think that we ought to subsidize all of them from 
the federal level at some grand scheme? No, I don't.
    I look at wind and solar kind of like I look at my kids. I 
have supported them through their growing years, but once they 
got out of college, they are kind of on their own. And we did 
that with wind and solar, we subsidized those. They have become 
very, very good at what they do. And innovation has allowed 
them to become incredibly efficient. So, the idea that we need 
to be subsidizing them going forward----
    Mr. McKinley. Unfortunately, Mr. Secretary, ----
    Secretary Perry [continuing]. Find the balance.
    Mr. Upton. The gentleman's time has expired.
    The chair would recognize the gentleman from Texas, Mr. 
Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. And, Secretary, 
welcome. You and I have known each other since the '80s when 
you got elected to the state legislature as a Democrat.
    Secretary Perry. I started to say, back in my Democrat 
days.
    Mr. Green. Yes. And in our younger years we played 
basketball together in Austin, and just like I did with 
Chairman Shimkus.
    Our subcommittee here has had a number of hearings over the 
last few months. And it seems like every panel we have they 
talk about how Texas got it right in our fuel blend that we are 
doing. And other states ought to look at that. And you were 
governor when we created this, basically, a free market system 
and with the wind power, natural gas. We only have two nuclear 
power plants in our state.
    But let me read you a quote from your nomination. ``Our 
willingness to develop natural gas and tap shale formations has 
helped Texas reduce its carbon footprint.'' But we truly 
advocated all the above strategies in your time as governor. 
Texas took the national lead in wind energy development. Texas 
is still one of the leading states when it comes to wind power, 
and many of the policies you oversaw and implemented as the 
governor are responsible for that.
    My concern is, and I am going to quote my colleague 
Congressman Shimkus, as well as the chairman of the 
subcommittee on Environment and the Economy: ``There are 
fundamental questions about what constitutes a base load power 
plant, something Perry in his request laid out as having 90 
days worth of fuel onsite.''
    During Harvey our coal plants in Texas had to switch to 
natural gas because the coal was under water. And it was so 
wet, when it did get out from under water it couldn't be used. 
Now, we can have a conversation of power sources that didn't 
happen, but our natural gas plants continued. In fact, our 
nuclear plant, that literally the hurricane came right over, 
continued to function.
    That is my concern, that seemed like with your new effort 
you are gaming the system and not doing what we did when you 
were governor in Texas on doing a free market program. And let 
me go to our national coverage now. And as Governor of Texas 
our electricity follows as 48 percent natural gas, 28 percent 
coal, 11 from nuclear, and 12 percent from wind sources.
    Now, to compare that to overall sources of generation for 
our country last year, the U.S. got 34 percent of its 
electricity from natural gas, 30 percent from coal, and 20 from 
nuclear, and 15 from renewables, including wind, solar, and 
hydro. That is why I question your recent DOE notice of public 
review. In an internal DOE report from July, DOE ``the power 
system is more reliable today due to better planning, market 
discipline, and better operating rules and standards.''
    Why do you find that there is now an immediate reliability 
crisis that needs to be addressed in an extremely short 45-day 
comment period? One, because we have had so much testimony in 
our own committee, subcommittee about reliability hasn't been 
an issue. And why do we need to do this?
    Secretary Perry. Mr. Green, thank you. Let me address your 
first question about the issue of coal and its being impacted 
by flood waters in this case.
    We learn something new in every disaster. I will give you 
one example. Remember when we did, and I think it was Ike, and 
we did a big contraflow on Interstate 45 bringing the--actually 
we contraflowed 45 and 10.
    Mr. Green. I only have about 50 seconds left and I have one 
more question. If you could----
    Secretary Perry. Right.
    Mr. Green [continuing]. Speed it up. If I get extra time 
like my colleagues then I can continue that.
    Secretary Perry. We learn something new every time. And I 
will suggest to you the coal folks have learned something new 
this time, and how they store coal is one of those. But I don't 
consider that to be anything other than a bit of a diversion 
for them to look at.
    And what was your last question?
    Mr. Green. Well, let me go to another one though.
    It seems like we're socializing now by this effort that you 
are trying to do, instead of do the free market system with the 
cheapest supplier could be nuclear because, you say, those 
plants will run 30 years and even extended. But right now 
natural gas is cheapest, or cheap as we could get with wind, 
and so we are using all we can of that. But it seems like you 
are putting your finger on the scale and not doing what we have 
done in the Texas for the last 15 years or so to try and let 
free market deal with it.
    And like I said, I don't have enough time but if the chair 
will let you answer that.
    Secretary Perry. I will briefly give you the same answer I 
gave----
    Mr. Green. It's hard for those of us from Texas to talk 
fast.
    Secretary Perry. Yes, sir. I understand.
    The key is there is no such thing as a free market in the 
energy industry. Do you agree that there is a free market? I 
don't, not even in Texas, because we have a PUC. We had the 
CRES. We have, I mean government's picking winners and losers 
every day by regulations and what have you. And I think I am at 
least honest enough to say that that is not--not that you are 
not, but----
    Mr. Green. Let me interrupt. I have the right to choose----
    Mr. Upton. The gentleman's time has expired.
    Mr. Green [continuing]. From 30 different plants for my 
electricity in my home.
    Secretary Perry. Yes, sir.
    Mr. Green. And the person who delivers it can also use 
whatever power generator they have.
    Secretary Perry. Yes.
    Mr. Green. So that is the free market that we have.
    Secretary Perry. And listen, the competition side of it, 
Gene, you know me, I am all about that competition. That is 
what we did back through the late '90s when we deregulated that 
market and the competition came. But the idea is that we had an 
administration before that had their thumb on their scale. I 
think you will agree that he liked green energy. And that is 
where the subsidization came. That is where they pushed down.
    I happen to think because there was in 2005 a guy that gave 
a pretty good speech about peak oil, that we had found it all, 
there wasn't any more. And taking a snapshot in time right now, 
$13, $14 an Mcf of gas, today it is substantially less than 
that. But I don't know what it is going to be 5 years down the 
road. But one of my responsibilities is to kind of look over 
the horizon, see what the future is.
    And, again, I go back to we have to make decisions to make 
sure that we have a diversified portfolio so that if the wind 
quits blowing, if the sun quits shining, if the gas 
transmission line is corrupted in some way that there are still 
people who are going to get power. That is my goal.
    Mr. Upton. The gentleman's time has expired.
    The chair would recognize the gentleman from Mississippi, 
Mr. Harper.
    Mr. Harper. Thank you, Mr. Chairman. And, Mr. Secretary, 
thank you and welcome. And it is always an honor to have you 
here.
    Secretary Perry. Thank you.
    Mr. Harper. And you have been a breath of fresh air as we 
look at the way you are doing the policy and setting those 
rules, looking ahead and having that foresight. And so we thank 
you for your, your efforts.
    This past February GAO reported that the DOE is responsible 
for almost $370 billion worth of environmental liabilities. 
About $4.5 billion of the agency's defense environmental 
programs are spent on operational activities, and about $1 
billion to fund the capital asset construction projects needed 
to support operational activities.
    While there is a lot of focus on how DOE spends on major 
capital projects, like Hanford's waste treatment plant, we are 
not convinced that there is enough attention to ensure 
operational spending results in safe, effective cleanup and, 
thus, reduce future taxpayer costs. Can you talk about your 
plans accelerating DOE's environmental cleanup work?
    Secretary Perry. Yes, sir. That was one of the reasons that 
I wanted to go out at Chairman Walden's request, and the 
senators from Washington, and the government of Washington 
State, Governor Inslee and his Environmental Commission, and 
see firsthand. And I will tell you, historically there have 
been some decisions made that certainly were not in the best 
interest of taxpayers, not in the best interest of a timely 
cleanup.
    I think what we are seeing with Bechtel as the M&O out 
there on the vitrification plant, and it appears that they are 
moving forward in an appropriate way, both budget-wise, both 
time-wise, to be able to get that plant up, I have encouraged 
them to even be ahead of that schedule, that that would be a 
very good thing. But I am confident that in some of these 
really big projects on the cleanup side that we are, we are 
making progress.
    And as you rightfully stated, as we speed these processes 
up we save substantial amounts of dollars going forward.
    Mr. Harper. Your Environmental Management Office recently 
performed a 45-day review of operations. Can you speak to 
whether that will produce more effective cleanup?
    Secretary Perry. Well, yes, sir.
    Mr. Harper. Hope so.
    Secretary Perry. It will.
    Mr. Harper. Yes.
    Secretary Perry. And whether it is out at Portsmouth, which 
I was there about 2 weeks ago; and we got WIPP back online in 
Carlsbad, New Mexico, and they are again taking shipments. We 
have got the chromium issue; Oak Ridge is, theirs is making 
progress. Savannah River is making progress on their, their 
tank waste out there, which is the largest environmental risk 
at that site.
    So this is a monumental task, as you talked about. The 
amount of money and the amount of time that we are talking 
about here is pretty stunning.
    Mr. Harper. Look, I want to talk for just a minute in the 
time we have left. Our national laboratories, I know you 
visited a number of those during your tenure. The Department's 
national laboratories, you know, developed as really an 
outgrowth to the Manhattan Project. That is really I think the 
crown jewels of our nation's federal research framework. And 
over the last decade congressionally-chartered expert panels, 
GAO reports, non-governmental organizations have noted DOE's 
continued micromanagement of the labs, saying that perhaps they 
hampered innovation results in inefficient processes.
    So, Mr. Secretary, what is your perspective on how DOE's 
laboratory system is currently operating, and what steps that 
you might initiate to enable the labs to execute DOE's energy 
security and the innovation mission?
    Secretary Perry. There is clearly a balancing act that goes 
on between management at the top of an agency of 16-plus 
thousand people and 100,000 contractors versus allowing 
laboratories complete and total freedom to go do whatever they 
want to do. Hopefully, my experience as a CEO of a fairly large 
entity, matter of fact one larger than DOE, for 14 years 
informed me about how you put good, thoughtful, capable men and 
women into positions of management and free them to go manage 
and to make the right decisions.
    That is what you can expect out of me because that is what 
my history has been. So if we have a lab that is having some 
challenges and, Los Alamos had some challenges over the last 
couple of years, and we are addressing those, but by and large 
my approach is going to be hire really good people----
    Mr. Barton [presiding). The gentleman's time has expired.
    Mr. Harper. My time is up. Thank you.
    Secretary Perry. Point them in the right direction, and 
free them to go do what the people of this country need.
    Mr. Harper. Thank you, Mr. Secretary.
    Secretary Perry. Yes, sir.
    Mr. Barton. The gentleman's time has expired.
    Mr. Secretary, we have about another 45 minutes, hour's 
worth of questions. To quote you, if you will shorten your 
answer we can get on down the road.
    Secretary Perry. Yes, sir.
    Mr. Barton. And you and I can go have Texas barbecue, Blue 
Bell Ice Cream----
    Secretary Perry. OK, I will.
    Mr. Barton [continuing]. And pecan pie.
    Secretary Perry. I will quite filibustering, sir.
    Mr. Barton. All right. I am going to remind you of that.
    With that, I want to recognize my good friend from 
Pennsylvania, Mr. Doyle, for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman. Mr. Secretary, welcome.
    Mr. Secretary, I would note that many of your responses to 
the questions regarding the NOPR highlighted the polar vortex. 
PJM, which is the RTO in my area, responded to that crisis with 
new rules to address those capacity issues. And while I don't 
think the rules are necessarily perfect, that there is many 
different levers to pull here, or smaller tweaks than what you 
are directing FERC to do in the 403.
    I would also like to point out that this committee has held 
eight hearings on markets and reliabilities. We have actually 
been having the conversation that you claim to be starting. 
Greenwire reported last week that you claimed that the 403 you 
sent to FERC wasn't a directive, you said you were hoping to 
have a conversation. And you have said that many times today in 
this hearing.
    However, the NOPR includes phrases like ``the Commission 
must act now,'' ``the Secretary is directing the Commission,'' 
and ``the Secretary is requiring the Commission.'' The document 
contains the word ``must'' 12 times. And I just want to point 
out that the comment period on this NOPR is extremely short and 
could fundamentally reshape or destroy many of the electricity 
markets very, very quickly.
    So, it seems to me that your quotes in front of this 
committee today and the document that you sent FERC seems to be 
at odds. So, which is it, Mr. Secretary, is this a directive 
for FERC to do this or is it a conversation?
    Secretary Perry. Both.
    Mr. Doyle. So it is a directive then.
    Secretary Perry. My words are what my words are. I don't 
back off from them. And----
    Mr. Doyle. OK. Well, what your words said in the NOPR and 
what you are saying here today seem to be at odds with one. 
They can't be both, so which one is it?
    Secretary Perry. Well, actually it is both. It can be both. 
We can have a conversation, and I think they must move. I think 
they must act. We have kicked this can down the road as long as 
we need to.
    Mr. Doyle. Do you think there are any alternative--I mean, 
what you are proposing in this 403 is rather extreme. It is you 
talk about putting fingers on the scale, you are putting a 
heavy finger on the scale here in this 403. And if you claim to 
be an all-of-the-above energy person, as I am, this is going to 
result in major disruption in the electricity markets.
    So, which comes first? This is a short comment period time, 
so, are we in conversation mode first and then there is going 
to be a decision? Or have you given a directive to FERC to do 
something without a conversation up front?
    Secretary Perry. Mr. Doyle, I think you are wrong in one 
thing you said, and it is that----
    Mr. Doyle. I have probably been wrong in many things I have 
said. I am sure you haven't but.
    Secretary Perry. Trust me, and I have been in front----
    Mr. Barton. Doyle is a good baseball man.
    Secretary Perry. I have been in front of 4 million people 
before in a debate setting. That was when I could just remember 
them.
    The point is, I hope nobody thinks that I take credit for 
starting this conversation. Congressman Olson
    Mr. Doyle. OK, you are forgiven for that. But let's just 
move----
    Secretary Perry. I think going on about, this has been 
discussed for a long time, as you rightfully said.
    Mr. Doyle. Right.
    Secretary Perry. I just think it is, and again, I don't 
want the folks in Pennsylvania in your district to be calling 
you up and saying, Congressman Doyle, why in this----
    Mr. Doyle. Our RTO made those adjustments. We are pretty 
confident about our capacity in Pennsylvania.
    Let me ask another question.
    Secretary Perry. Pretty confident is not going to get it.
    Mr. Doyle. You are good at filibustering. I want to ask 
some questions.
    Secretary Perry, your predecessor released a report, the 
Quadrennial Energy Review, finding that the short-run markets 
may not provide adequate price signals to ensure long-term 
investments in appropriately-configured capacity. And I do 
think that that is an issue.
    Also, resource valuations tend not to incorporate 
subordinate network or the social values such as enhancing 
resilience into resource or in investment decision-making.
    So I think the increased importance of system resilience to 
overall grid reliability may require adjustments to market 
mechanisms to enable better valuations. I think coal and 
nuclear needs to have better valuations than it has today.
    But I want to ask you, do you think there are any better 
alternatives, options that should be examined instead of the 
NOPR?
    Secretary Perry. I don't have any idea whether there are 
any better options. That is one of the reasons we wanted to 
have this conversation is to bring those up and discuss them. I 
am not saying that my letter to FERC is the be all to end all, 
but it has obviously been very successful in getting the 
conversation going.
    Mr. Barton. The gentleman's time has expired.
    Mr. Doyle. Thank you, Mr. Chairman.
    Mr. Barton. The chair now recognizes the gentleman from 
Ohio, Mr. Latta.
    Mr. Latta. Thank you, Mr. Chairman. And, Mr. Secretary, 
thanks for being with us today.
    Secretary Perry. Yes, sir.
    Mr. Latta. Like you, I believe in promoting American energy 
security, and that means an all-of-the-above energy policy for 
the United States. And I would like to take a moment to thank 
you for your recent actions to start those conversations about 
energy mix and energy markets. And I would like to now focus on 
a couple of items of legislation I have been working on.
    Mr. Secretary, in addition to the mandatory efficiency 
standards there is also a voluntary program called Energy Star 
that identifies those appliances that go above and beyond the 
federal efficiency standards by allowing them to carry the 
Energy Star label. This label allows consumers who want ultra-
efficient appliances to easily identify which models save the 
most energy. However, in 2009 the Obama administration shifted 
the lead role for this voluntary program from the DOE to the 
EPA. Many have complained that the EPA is the wrong agency to 
handle what is fundamentally an energy program.
    And, Mr. Secretary, do you believe that the Energy Star 
Program is one that should be led by the DOE or the EPA?
    Secretary Perry. From a scientific standpoint I think that 
the question answers itself on its face. It is the national 
labs that have the scientific ability to look at these programs 
and actually analyze them in a scientific way reside over at 
DOE.
    Mr. Latta. Thank you. And being that DOE has been setting 
the mandatory efficiency standards for appliances for 30 years, 
do you also believe that your agency and not the EPA has that 
relevant expertise? And going back and talking about what the 
standards you just said, I assume that would be yes.
    Secretary Perry. Yes.
    Mr. Latta. And would you also support legislation that 
would clearly make the DOE the lead agency on the Energy Star 
Program?
    Secretary Perry. That is going to be your call, sir. But it 
makes abundant sense to me that that would be a good slot for 
it to reside in.
    Mr. Latta. Thank you. And, Mr. Secretary, I appreciate your 
previous words of support for advanced nuclear technologies. As 
you may know, in January the House passed my legislation, the 
Advanced Nuclear Technology Development Act, by a voice vote. 
And this legislation will help pave the way for American 
innovators, nuclear engineers, and entrepreneurs to design, 
develop, license, and ultimately deploy the next generation of 
nuclear reactor technologies. The Department of Energy's Office 
of Nuclear Energy plays an important role in supporting these 
potentially break-through technologies in addition to 
appropriately coordinating with the NRC to assure that those 
technologies will navigate the NRC's rigorous regulatory 
approval process.
    And, Mr. Secretary, what is your vision for DOE's Advanced 
Nuclear Technology Programs, and how do you plan to ensure that 
there is appropriate alignment with the NRC on those advanced 
reactor licensing activities?
    Secretary Perry. We think small modular reactors, advanced 
reactors are the real way to the future. One of the reasons 
that we think it is important to support the nuclear industry 
today is because we have been losing that race, if you will. We 
don't want to get to the point in the globe where the only 
people that have the technologies, that have the supply chain 
capability are the Russians, the Chinese, and/or the Koreans. 
And that is a concern of mine, that we are headed that 
direction in this country today because of the lack of support 
for the civil nuclear power industry.
    Idaho National Labs has a substantial project. Hopefully we 
can see the funding go forward on those small modular reactors 
and that 10 years down the road people will have looked back 
and said, we made the right decisions about focusing on 
advanced reactors, and that the country is better served and 
America takes it rightful place back as the lead on innovation 
and supply chain, and the brainpower in the nuclear side of the 
equation.
    Mr. Latta. Well, thank you very much.
    And, Mr. Chairman, I yield back the balance of my time.
    Mr. Barton. I believe you are the first one to actually 
yield time. So we appreciate it.
    The gentlelady from Florida, Ms. Castor, is recognized for 
5 minutes.
    Ms. Castor. Thank you, Mr. Chairman. And welcome, Mr. 
Secretary.
    I want to ask you about Puerto Rico because we have never--
and the U.S. Virgin Islands, because in the history of America 
we have never seen an electric grid devastated to the extent 
that we have after Hurricane Maria. And as of right now, 84 
percent of customers in Puerto Rico are without power, and the 
U.S. Virgin Islands figure stands at 86 percent in St. Thomas, 
88 percent in St. Croix, 100 percent in St. John. And even 
after Hurricanes Irma and Harvey we saw widespread outages in 
Florida and Texas and the Gulf Coast.
    Yesterday we had a briefing from the Department of Homeland 
Security, FEMA, and the Army Corps of Engineers and they said 
that under current law in the Stafford Act that all we can do 
right now is do some repairs. We cannot do what we need to do 
to build a modern, resilient grid in Puerto Rico and the Virgin 
Islands. Yet, there are a lot of bipartisan discussions here. 
It is not contained in this Emergency Supplemental to begin 
that or change what the Stafford Act says. So we have got to 
protect the taxpayer. We cannot just rebuild what was there 
before. We have got to build according to the national 
laboratory research, your great ISER Group at DOE.
    So, oftentimes planning and conversations don't cost 
anything, or not much at all. Could you go specifically into 
what conversations you have had already with PREPA, the Army 
Corps of Engineers, bond holders, what is your plan to build a 
more distributed grid there with the modern technology that is 
at our fingertips?
    Secretary Perry. Congresswoman Castor, you have just 
pointed out the real challenge that this country faces in 
dealing with the territory and the citizens of Puerto Rico. 
That is a, that is a country that already had its challenges 
before this storm----
    Ms. Castor. Well, they are America. They are American 
citizens, so it is not a country.
    Secretary Perry. Sure. Excuse me.
    Ms. Castor. But could you just detail, since the time is 
limited----
    Secretary Perry. That is the reason I called it a 
territory, ma'am. I apologize for misstating here and saying 
country. But the territory had a challenge in front of it 
already because of the oversight under PERPA----
    Ms. Castor. We know that. I just want to--time is limited, 
so can we just say----
    Secretary Perry. Yes.
    Ms. Castor. --specifically what conversations you have had 
and what is to come?
    Secretary Perry. We have had many conversations about how 
to deal with this. The challenges are, are real. I can't tell 
you that there are any quick and fast solutions. Rebuilding it 
back to where people have power right now is the number one 
goal, getting that power back on.
    Ms. Castor. Has there been an interagency meeting here at 
DOE or in Washington to discuss this?
    Secretary Perry. We have interagency meetings all the time, 
ma'am.
    Ms. Castor. Specifically on----
    Secretary Perry. Yes, about this issue.
    Ms. Castor. OK. Well, I, we, the entire committee and 
everyone would benefit if you could report back on with greater 
detail and specificity so that we can be accountable as 
possible,
    And I have to say it is so disheartening to see President 
Trump state this morning that we cannot keep FEMA and military 
and first responders in Puerto Rico forever. I hope this 
doesn't echo across the Administration and the great folks of 
the Department of Energy and the Congress. I hope, instead, 
that Vice President Pence's statement would prevail that we are 
going to be with our fellow citizens every step of the way.
    So, on the grid resiliency pricing role, a consensus is 
forming very quickly that this is a very misguided effort. It 
is not based on science. I know you said before, we don't know 
in our hearts, or maybe we can find it in our hearts. 
Fortunately, when it comes to electricity markets we don't have 
to rely on what we feel. We have the very best scientists and 
analysts. In fact, right there in the Department of Energy in 
your own August grid study they said that the grid right now is 
reliable, it is strong, it is actually more reliable than ever.
    We also rely on the North American Electric Reliability 
Corporation, NERC. They have said even just recently that the 
U.S. power system reliability is strong. So there just is no 
rational basis for this new FERC rule that you are trying to 
move through as quickly as possible.
    And I am concerned especially that the whole discussion 
about how much this is going to cost consumers and businesses 
all across the country is being short circuited. We had experts 
here last week that said we are looking at multi-billion dollar 
cost increases on our neighbors back home.
    And so what is the Department's plan to actually hear from 
these consumer groups that stand up for our neighbors? We hear 
a lot from special interests and lobbyists in Washington. But 
how do you, in your role of representing everyone----
    Mr. Barton. The gentlelady's time has expired.
    Ms. Castor [continuing]. Give voice to the consumer 
concerns and these massive cost increases that appear to be on 
the horizon?
    Mr. Barton. The Secretary can answer the question but the 
gentlelady's time has expired.
    Secretary Perry. I can. Ms. Castor, if the letter, the NOPR 
to FERC is what you say it is, they won't go forward with it.
    Mr. Barton. The chair recognizes the gentleman from 
Illinois, Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman. And, Mr. Secretary, 
thank you for being here. Thank you for your service. And I am 
really excited you are in the position you are. So thank you 
for all the good work you are doing.
    I think nuclear has been talked about a lot. I am going to 
touch on it, then I have another question.
    You mentioned the decline of the domestic base in terms of 
being able, international competition with nuclear. And I think 
that is an important point to reiterate is the fact that we 
have always been really the world leader in nuclear. And that 
is helpful from a national security perspective, too, in terms 
of nuclear non-proliferation, writing the rules of the road. 
And that is a base that we are losing.
    And I think I was heartened to hear your mention of that 
and the fact that that is essential, not just to the economy, 
not just to grid reliability, not just to electricity, but to 
national security. That is a very important thing.
    I also want to thank you for being supportive of the smart 
reforms at the NRC. Mr. Doyle and I have the NUKE Act which I 
think has a lot of support and I really appreciate all of that. 
It is a very vital part of our economy. Illinois gets a 
significant power of its energy from nuclear, and the country 
gets a very significant amount of that, too.
    But since that has been hammered a lot, I do want to ask 
you in the Energy Independence and Security Act of 2007 the 
Bureau of Energy Resources was created at the State Department. 
It is effectively giving State its own energy office. There is 
no requirement for State to consult or collaborate with the 
DOE, and even though DOE has a more technological expertise on 
energy matters, and especially nuclear matters. Can you 
describe how DOE and State work together on energy policy and, 
specifically, can you provide areas that may be improved?
    Secretary Perry. I can't.
    Mr. Kinzinger. OK. Because?
    Secretary Perry. I am not aware that they even had an 
energy effort over there. But if they did, you would think they 
would have contacted us. And if they have, I am not aware of 
it.
    Mr. Kinzinger. That would make sense, wouldn't it?
    Can you talk then about maybe your role when it comes to 
thinks like LNG exports and blunting the Russian energy weapon 
in Eastern Europe and, pushing back against the blackmail that 
the Russians can use against our allies?
    Secretary Perry. And I will try to be brief here. You have 
done a good job of basically laying out the facts.
    The United States is blessed after the shale revolution of 
being able to produce. We are a net exporter of LNG as of this 
year. I believe in 2 years we will be the net exporter of all 
U.S. energy, and that is an incredible blessing.
    Mr. Kinzinger. Miraculous.
    Secretary Perry. To be able to use that for America's best 
interests from a weapons standpoint, if you will. When you 
think about that Russia uses energy as a weapon, then America 
needs to have the largest arsenal. And so our ability to 
deliver LNG to whether it is a country like Ukraine, along with 
coal, to Poland, to the European Union, this is a powerful 
diplomatic tool of which we need to use wisely to support our 
allies, and to send a message to those that would use energy as 
a weapon that we will not be allowed to be pushed back with 
that, and we are going to support our allies.
    Mr. Kinzinger. Well, I thank you for that. And I think it 
is a very important point is I actually think the energy 
revolution in this country borders miraculous. Ten years ago we 
thought that we would always be reliant on Middle East energy. 
And we find basically today that we have way more than we ever 
thought, and we can access it for a good price and be a swing 
producer in the world, and blunting energy weapons not just 
from Russia but all over.
    With that I just want to thank you, Mr. Secretary, again 
for your service, for being here, spending your time. And I 
will proudly yield back 50 seconds to the chairman.
    Mr. Barton. And we have got a good tradition starting here.
    Now we are going to go to Mr. Sarbanes of Maryland for 5 
minutes.
    Mr. Sarbanes. I am going to break the tradition so recently 
established. Thank you, Mr. Secretary, for being here.
    The U.S. intelligence community, as you know I think, has 
drawn a definitive conclusion that Russian hackers were 
interfering with our elections last year. And I know the 
President and a fair number of people within the Administration 
are resisting that conclusion still. But I want to talk to you 
about the potential exposure with respect to our grid and our 
energy security that is posed by hackers, by Russian attacks, 
cyber attacks.
    Do you agree that the grid is at risk from cyber attacks 
from Russian hackers, or other hackers for that matter?
    Secretary Perry. Yes.
    Mr. Sarbanes. And I will note that back in 2015 the 
Congress approved the Fixing America's Surface Transportation 
Act, the FAST Act. That was a bipartisan bill. There were 
provisions included that Chairman Upton put in there that 
expanded DOE's authority to counter cyber security threats. And 
those provisions actually designate your department as the lead 
agency for energy sector cyber security.
    So I would like to, maybe you could speak for just a minute 
or so about what actions you are taking as the lead agency with 
respect to the cyber threats to our, our energy security and 
our grid, to give us some confidence that this is getting the 
attention that it deserves.
    Secretary Perry. So over the past year the Department has 
worked with the entire energy sector, with the national labs, 
with the federal agencies that are involved with this, with the 
industries specific to develop a comprehensive strategy and a 
plan for the energy sector cyber security. The strategy for the 
energy sector is to leverage strong partnerships with the 
private sector.
    We have got three labs that specifically their role is, it 
is called CyberCorps, their role is to focus on these cyber 
security issues, working with the private sector to strengthen 
today's cyber systems and risk management capability. And I 
might add to develop innovative solutions for tomorrow.
    Mr. Sarbanes. I appreciate that.
    I would also appreciate, and maybe we can get this arranged 
here, I know that the FERC Chairman Chatterjee has agreed to 
brief members of this subcommittee on efforts to address the 
report of Symantec, for example, that describes these potential 
cyber attacks that are happening, or ones that are happening 
right now. Would you also agree to pull together a briefing of 
the members of the subcommittee on the reports we have heard of 
of these Russian-linked hackers targeting the electric grid? Is 
that something you would be willing to do?
    Secretary Perry. Yes, sir.
    Mr. Sarbanes. Appreciate it. And we will try to, we will 
try to make that happen.
    I want to switch gears real quick. I have got 2 minutes 
left. I want to go back to the travel situation, not to beat a 
dead horse, but because actually I see an opportunity here, 
given your willingness to address this up front.
    I have been chairing this Democracy Reform Task Force. We 
are actually releasing a report today called Trump's High 
Flying Cabinet which details what I see as kind of a culture of 
entitlement among many of the cabinet members in terms of using 
these private jets at public expense to kind of jet around the 
country in ways that I think are offensive to the average 
person out there.
    You have spoken to the critique that your agency has 
received, and that you have received with respect to that. And 
I appreciate that. And I have to say in the context of the 
report that the conduct that you have been criticized for is 
not as egregious as most of the rest. That may be damning you 
with faint praise, I don't know. Or perhaps in the land of the 
ethically blind the one-eyed man is king, or something like 
that.
    But I did want to speak to the fact that I think in the 
last couple of days the acting head of the Office of Government 
Ethics sent a memo around to agency heads. Did you receive this 
memo which talks about the role of agency leaders in promoting 
an ethical culture? Is that something you are familiar with?
    Secretary Perry. I don't know. We will look and see, sir.
    Mr. Sarbanes. All right. Well, I commend it to you.
    It says, among other things, as a leader in the United 
States Government, the choices you make and the work that you 
will do have profound effects upon our nation and its citizens. 
And the citizens deserve to have confidence in the integrity of 
their government.
    I am Greek-American. I always invoke my Greek heritage. 
There was an ancient Greek philosopher named Diogenes who 
wandered around in the daytime with a lantern looking for the 
honest man.
    Mr. Barton. The gentleman's time has expired.
    Mr. Sarbanes. You could be the honest man here. You could 
start a cultural revolution within the Administration that says 
we are going to pay attention to ethics. I encourage you to do 
that.
    Mr. Barton. The gentleman's time has expired.
    Mr. Sarbanes. And I thank you for your testimony.
    Mr. Barton. The gentleman's time has expired.
    The chair now recognizes Mr. Griffith of Virginia for 5 
minutes.
    Mr. Griffith. Thank you very much. It is never a bad thing 
to be compared perhaps with Diogenes. So I think that was a 
veiled compliment. And I look forward to you striving to meet 
that challenge.
    I have to tell you I think you are doing a good job here 
explaining things this morning. And I agree with most 
everything that you have said. Particularly, I have to say that 
I agree with your proposed rule related to making sure that we 
have those facilities available that have fuel on site, coal 
and nuclear. Those facilities are resilient in case of 
emergencies like we had with the polar vortex a few years ago.
    And it is almost like we have forgotten that natural gas, 
while it never completely shut down, the price went from $3.00 
to $4.00 100 cubic feet or 1,000 cubic feet, to over $100. And 
many places had to shut down jobs and et cetera because they 
couldn't afford to pay that price because supply didn't keep up 
with demand. And I think it is important that we remember that. 
And I think what you are doing to make sure that things are 
there are very important.
    As you said to Congressman Doyle, pretty confident, just 
won't get it. If something happens it is going to be, folks 
looking to you to say, why didn't you do something? And I 
appreciate you trying to do something in advance of a problem. 
I appreciate that.
    Earlier this week the EPA Administrator announced the 
agency's proposed repeal of the Clean Power Plant. The rule 
represented an unprecedented intrusion into the states' control 
over their energy policy, threatened to raise rates, impact 
grid reliability, as well as harm energy-intensive and trade-
exposed industries. Under this rule the EPA was basically 
establishing the nation's de facto energy policy.
    Yes or no, wouldn't you agree with me that that is your job 
at the Department of Energy to establish the nation's energy 
policy?
    Secretary Perry. Yes.
    Mr. Griffith. Thank you.
    Secretary Perry. Well, let me filibuster just a second.
    Mr. Griffith. All right.
    Secretary Perry. Yes, working with Congress.
    Mr. Griffith. Well, and I appreciate that.
    As Secretary will you commit to challenging other federal 
agencies if their rules and regulations raise energy prices, 
limit energy production, or otherwise impact the Department of 
Energy's prerogatives in national energy policy? Yes or no.
    Secretary Perry. Yes.
    Mr. Griffith. Thank you.
    In addition to the Clean Power Plant, the past 
Administration's EPA issued standards for new power plants that 
effectively mandated carbon capture sequestration coal 
generation even though, as the committee's oversight showed, 
the technology was not yet truly viable for commercial power 
generation. Yet, the previous EPA barreled forward with an 
unworkable rule.
    I think DOE has the appropriate expertise to collaborate 
with the EPA on technology decisions affecting the energy 
sector. Would you agree with me on that? Yes or no.
    Secretary Perry. Yes.
    Mr. Griffith. Now I am going to let you answer however you 
want to, what role do you see for the DOE to ensure future EPA 
rulemakings reflect appropriate assessment of the true 
commercial viability of technology?
    Secretary Perry. There is a good working relationship 
between the cabinet members and their agencies. And I think you 
bring a good point that we don't work in silos. And then we 
should be looking for partners in different places so that, 
number one, we are not duplicating something that is going on 
in another agency, but there is also some synergy that can come 
from that.
    And I will give you one example. And excuse me for kind of 
diverting here. But the Department of Energy is standing up an 
Office of Veterans' Health. We are working with the VA, with 
the Health and Human Services, and with DoD through DARPA. And 
Congressman McNerney has been a strong advocate for the VA and 
for the veterans in particular. Not necessarily the VA but for 
the veterans. And that is a great example of how we can talk to 
each other, coordinate with each other, and come up with a 
better product for the people of this country, whether it is on 
innovation, whether it is on energy policy, or for that matter 
just how we take care of our veterans.
    Mr. Griffith. Well, I think that was one of the problems 
that, one of the frustrations that I had with the prior 
administration is oftentimes I would agree with the Department 
of Energy, even in the prior administration, but the actions of 
the Environmental Protection Agency prevented us from getting 
places. So when they pushed on one technology like carbon catch 
and sequestration, which I am not against but let's make sure 
it is viable, they basically tabled a lot of other things like, 
one of my favorites, chemical looping.
    I know DOE was putting money into it, which I encourage you 
to continue to do, but at the same time EPA wasn't really 
looking in that direction. And I think it created a situation 
where we had two different agencies going in different 
directions. So I would encourage you to work with your 
colleagues and let's all row in the same direction and we can 
get more done for the people of the United States of America.
    Thank you so much for being here today.
    Secretary Perry. Yes, sir.
    Mr. Griffith. And with that, Mr. Chairman, I yield back.
    Mr. Barton. The gentleman yields back. The chair recognizes 
the distinguished gentleman from Vermont, Mr. Welch.
    Mr. Welch. Thank you very much. Thank you, Mr. Secretary.
    One of the areas of bipartisan effort has been on 
performance contracting. And I know you have made some remarks, 
energy saving performance contracts. That is a promising area 
because it doesn't burden on regulations. It is not regulatory-
dependent, and very much a partnership with the private sector.
    You are going to be developing, or the Administration is, 
an executive order that will be released in the coming weeks. 
And I just want to really make sure that you will do everything 
you can to make certain that the performance contracting is 
embedded in it. That is something that colleagues on this 
committee have worked on. Mr. Mulvaney, when he was here, 
worked on it. Just a quick comment, some reassurance on that.
    Secretary Perry. Yes, sir. You can expect both myself and I 
think other members of the cabinet, along certainly with Nick.
    Mr. Welch. Will you set some goals, targets? We had a 
significant ambitious target in the Obama administration.
    Secretary Perry. Yes, sir.
    Mr. Welch. We need a target to reach.
    Secretary Perry. Yes. I don't know whether there will be 
numerical targets or not. But certainly the concept and we will 
push forward the----
    Mr. Welch. I would like to follow up----
    Secretary Perry. Yes, sir.
    Mr. Welch [continuing]. With the Administration on that.
    Secretary Perry. Absolutely.
    Mr. Welch. And I think a lot of us would like to work 
together with you on it.
    Secretary Perry. Yes, sir.
    Mr. Welch. The second thing, Mr. Latta was asking you about 
Energy Star. And, again, many of us have bipartisan support for 
that. And there is this question about whether there should be 
some changes. And your department has some responsibility. EPA 
has some responsibility.
    What are the responsibilities in the EPA that would not be 
done if in fact everything is turned over to DOE?
    Secretary Perry. Well, I am not sure that there would be 
anything that would be lacking.
    Mr. Welch. Well, they have jurisdiction over some things. 
You have jurisdiction over others. What do you have 
jurisdiction over that overlaps----
    Secretary Perry. What I thought you were saying is, if they 
were all consolidated into the Department of Energy what would 
get discarded? And I am not sure anything would necessarily get 
discarded other than a lot of bureaucracy.
    Mr. Welch. Well, but I get it on the bureaucracy. And less 
is better. I am with you on that.
    Secretary Perry. Right.
    Mr. Welch. But the functions that have to be performed that 
now are done by the EPA with respect to maintaining the Energy 
Star Program. So my question is how would your agency meet 
those requirements?
    Secretary Perry. Any requirement that requires a scientific 
look where you are taking and--and then that is going to be at 
DOE obviously.
    Mr. Welch. Here is what I will ask. With bipartisan support 
on Energy Star, we want to make it strong. If there is going to 
be a discussion about having it all be done in one place versus 
two, we have got to make certain that the integrity of the 
program is maintained. I would like to work with you on that. 
OK?
    Secretary Perry. Well, here is how I will finally address 
this. You make the rules and we will follow the instructions of 
Congress.
    Mr. Welch. All right. Thank you.
    Mr. Barton. Would the gentleman yield just----
    Mr. Welch. Sure.
    Mr. Barton. We are going to do a DOE reauthorization bill. 
And we are trying to make it bipartisan. And if that happens, 
your suggestions will be seriously considered from this side, I 
guarantee you.
    Mr. Welch. I appreciate that. Thank you very much.
    Another issue here is this proposed rule that was going to 
focus on coal and nuclear, I get that. But it is expensive 
according to the study, so about $800 million to $3.2 billion a 
year. And this isn't exactly your area of concern but it is the 
concern of many of us on the committee, including Mr. McKinley 
and Mr. Griffith, the coal miners have been hammered. And they 
lost their healthcare. And we took steps in Congress to address 
that. But they have lost their pension.
    And if we are talking now about spending $800 million to 
$3.2 billion a year for the coal companies but we don't address 
the pensions that these miners have earned going into those 
mines day in and day out, many of them for 30 years, and the 
pensions are like $540 a year, where is the justice in that?
    Secretary Perry. Mr. Welch, one of the things that I can 
share with you is that if for whatever reason the companies 
that are still being able to hang on by their literal 
fingernails go under, then the pensions that those companies 
have, the healthcare that those companies are putting forward 
today will just exacerbate this problem even more. But that is 
not the main reason we are talking about what we are doing with 
the 403. The main reason we are talking about doing this with 
the 403 is for the resiliency and the reliability of the grid.
    Mr. Barton. The gentleman's time has expired.
    Mr. Welch. Thank you.
    Mr. Barton. The chair now recognizes the gentleman from 
Ohio, Mr. Johnson.
    Mr. Johnson. Mr. Secretary, thank you for being here today. 
We call you several titles: Mr. Secretary, Governor. And a lot 
of folks don't realize that long before that you wore another 
title, you were an Airman. And as an Air Force veteran I want 
to thank you for your service. And I look forward to working 
with you to advance your concern for our nation's heroes and 
our veterans. That is important.
    As you know, Mr. Secretary, eastern and southeastern Ohio 
is blessed with a wealth of energy resources from the abundance 
of coal, oil and gas, and critical nuclear technologies. And it 
truly has every major resource to supply our state and our 
nation with the energy that we need. So we are well positioned 
to advance the idea of energy dominance and making the 
Appalachian corridor all that I know you and the President, the 
Administration want it to be. So I look forward to working 
closely and following closely FERC's work regarding your recent 
request relating to the power markets.
    These are complex issues surrounding the power markets. And 
FERC has been looking at these power issues, power price issues 
for some time now, especially with an eye toward grid 
stability. And I think encouraging the Commission's continued 
work in that regard and on those issues is very helpful.
    I also want to thank you for your recent visit to Piketon, 
Ohio. As you know, Piketon is home to a highly-skilled 
workforce. You talked about workforce in your comments today, 
that workforce being capable of operating critical domestic 
uranium enrichment technology. And the cleanup efforts underway 
there at the former Portsmouth Gaseous Diffusion Plant is 
equally important to repurpose that property to make it another 
job creator for southern Ohio.
    So I look forward to working with you on those issues, 
specifically ensuring that America has the domestic enrichment 
capability to meet our national security needs, along with 
keeping the cleanup operations on track.
    Now, Mr. Secretary, I would like to discuss energy exports. 
As President Trump has made that a clear priority with his 
energy dominance agenda, encouraging exports, whether that is 
coal, natural gas, or nuclear technology is crucial to ensuring 
these energy industries remain a vital component of our 
domestic economy, along with strengthening our geopolitical 
ties. And I don't have to remind you that DOE plays a critical 
role in the vitality of America's civil nuclear industry's 
engagement in international commerce through what is known as 
the Part 810 process.
    Energy and Commerce, this committee, has long recognized 
the economic and national security value of a strong American 
presence in these foreign markets. The previous administration 
initiated some targeted process reforms which I understand are 
still being implemented. So, do you, Mr. Secretary, acknowledge 
the critical importance of maintaining our American presence in 
international civilian nuclear markets? And will you provide 
your commitment to implementing further efficiencies in the 
Part 810 approval process?
    Secretary Perry. Yes, sir.
    Mr. Johnson. OK, great.
    Additionally, under your leadership DOE--and we talked a 
little bit about this, you partially answered this question 
already--under your leadership DOE has approved multiple LNG 
export applications. In your view, what should Congress do to 
ensure the U.S. cultivates and maintains a leadership role in 
LNG exports? And are there any barriers to LNG exports that 
should be addressed and we focus on?
    Secretary Perry. Well, obviously the ability for the United 
States to be a leader in exporting LNG, the jobs, the economic 
impact that it has. Certainly in your area of the state where 
you are sitting on top of--I suppose your part of the state 
still has part of the Marcellus and----
    Mr. Johnson. All of it.
    Secretary Perry [continuing]. Utica underneath that. And 
so, coming from a state that has been blessed with an 
extraordinary amount of gas, other areas, and there may be 
places, Mr. Tonko's, who we don't even know yet as we have 
identified. I go back to 10 years ago there was a guy making a 
pretty good living the peak oil speech, that we had found it 
all and that we didn't--well, maybe, maybe not. But the point 
is being able to send that gas around the world, as I said 
earlier.
    I won't repeat all that, but it is incredibly important 
from a domestic economic standpoint and from a global national 
security standpoint----
    Mr. Upton. The gentleman's time has expired.
    Secretary Perry [continuing]. To have that out in the 
market.
    Mr. Johnson. Thank you, Mr. Secretary.
    And thank you, Mr. Chairman. I yield back.
    Mr. Barton. I now want to recognize the gentleman from New 
York, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chairman. Thank you, Secretary 
Perry for joining us at the subcommittee.
    Earlier you were asked about the ARPA-E program. I just 
want to understand your answer clearly.
    Secretary Perry. Sure.
    Mr. Tonko. Do you oppose the elimination of the program?
    Secretary Perry. I am sorry, which program?
    Mr. Tonko. ARPA-E.
    Secretary Perry. ARPA-E. No, sir. I hope I made pretty 
clear in my remarks that I think the ARPA-E program has its 
place. Does it need to be restructured? And Chairman Barton and 
I are in conversation about that at this particular point in 
time.
    But is it called ARPA-E, is it called something else? I 
will let----
    Mr. Tonko. Do you disagree that it should not be 
eliminated? Do you think it should be eliminated?
    Secretary Perry. Here is what I agree with. I agree that 
innovation is the real lifeblood of this country and government 
does have a role in making sure that----
    Mr. Tonko. Thank you.
    Secretary Perry [continuing]. Technology gets to the 
commercialization standpoint, and government plays a role in 
that.
    Mr. Tonko. OK. It is a beneficial program to districts like 
mine. And I would hope that we would grow it, not reduce it or 
eliminate it.
    Secretary Perry. Yes, sir.
    Mr. Tonko. It is clear that many members have both 
substantive and process concerns with your recent Notice of 
Proposed Rulemaking. It was reported that you said the Obama 
administration had its thumb on the scale of energy markets to 
the detriment of base load industries. Could you provide 
examples of what you mean by that?
    Secretary Perry. Yes, sir. What I mean was is there is 
clear--and, listen, administrations get elected and elections 
have consequences. And for 8 years President Obama was the 
President of the United States and he had a clear, 
philosophical----
    Mr. Tonko. Examples. Examples so we can get right to that.
    Secretary Perry. Yes, sir. Whether it was putting money 
into clean energy programs, whether it was putting money into 
batteries. Sometimes they were----
    Mr. Tonko. Clean energy programs.
    Secretary Perry [continuing]. Good procedures, sometimes 
they weren't. I am going to suggest to you Solyndra wasn't a 
good idea. Maybe that one wasn't a place that--So it is about 
using good, thoughtful processes. It is the reason I created 
when I was back in the State of Texas the program----
    Mr. Tonko. The examples again. The examples.
    Secretary Perry. I just gave you one, the----
    Mr. Tonko. But others?
    Secretary Perry. Whether the clean energy across the board.
    Mr. Tonko. Are you talking about renewables?
    Secretary Perry. I am talking about clean energy. I will 
tell you what I will do, I will try and get you a list of all 
of those programs and do that.
    Mr. Tonko. OK. Did it include renewables?
    Secretary Perry. Well, if you consider battery technology a 
renewable, yes, I guess it would.
    Mr. Tonko. But renewable power itself: ITCs, PTCs?
    Secretary Perry. I am not sure what you mean by that.
    Mr. Tonko. Well, the Investment Tax Credits or Production 
Tax Credits, are you upset with that? Is that a thumb on the 
scale?
    Secretary Perry. I am not upset with them. I just think it 
is a conversation we need to have so that----
    Mr. Tonko. But is it an example of what you mean about the 
thumb on the scale?
    Secretary Perry. I am talking about when you are sending 
clear messages through, whether it is the EPA or whether it is 
through the DOE that these are the programs, these are the 
places that we want the Administration to expend dollars. I 
will be more than happy to try to get you a list----
    Mr. Tonko. So were ITCs and PTCs part of that then?
    Secretary Perry. Have they been used as a way to influence 
the market? Yes.
    Mr. Tonko. Well, weren't they passed by Congress?
    Secretary Perry. That doesn't mean everything that Congress 
does I agree with.
    Mr. Tonko. OK. Well, you are pointing the finger at the 
Obama administration. But I would suggest that they were 
authorized by this Congress, a Congress in 2015 when your party 
was in control, so.
    But if you can get us a list of those, please.
    Secretary Perry. I think that would probably be a better 
way to do this.
    Mr. Tonko. All right. Do you agree with the DOE assessment 
that distribution systems are responsible for over 90 percent 
of total electric power interruption?
    Secretary Perry. Ask the question again.
    Mr. Tonko. Rather than lack of generation. Do you agree 
with that report?
    Secretary Perry. That 90 percent of?
    Mr. Tonko. Of interruptions were caused by distribution 
systems rather than lack of generation?
    Secretary Perry. I don't know the details of the report 
about all the ways that it was studied. I think the idea to be 
making a----
    Mr. Tonko. OK.
    Secretary Perry [continuing]. Black or white, yes or no 
decision on that question is the----
    Mr. Tonko. Well, let me ask this then. What factors did you 
consider when deciding that it would be more cost effective to 
support specific types of generation to enhance reliability 
rather than shooting right out and improving infrastructure?
    Secretary Perry. I think the cost-effective argument on 
this is secondary to whether or not the lights are going to 
come on. And I think it is really important for----
    Mr. Tonko. Did you measure costs to the consumer when you 
did these, because that would be important?
    Mr. Barton. That has to be the last question. The 
gentleman's time is expired.
    Mr. Tonko. Can he answer the question?
    Secretary Perry. I think you take cost into account. But 
when it comes to, what is the cost of freedom? What does it 
cost to build a system to keep America free? I am not sure I 
want to just put that straight out on the free market and say, 
OK, whoever can build the cheapest delivery system here to keep 
America free, that is the same argument I make on the energy 
side.
    Mr. Tonko. But my businesses and manufacturers are upset 
about the cost to them of your proposal, so.
    Secretary Perry. Well, I am concerned about a citizen that 
is calling you up and saying, Why did you not address this 
issue when we had the opportunity to in 2017.
    Mr. Barton. The gentleman's time has expired.
    Secretary Perry. The electricity in my house is not on. My 
family is freezing to death.
    Mr. Barton. Mr. Secretary, the time to answer has expired.
    Mr. Tonko. Thank you, Mr. Secretary.
    I yield back.
    Mr. Barton. All right. We want to go to the gentleman from 
College Station, Texas, Mr. Bill Flores, for 5 minutes.
    Mr. Flores. Mr. Secretary, it is great to see you.
    Secretary Perry. The senior class of Texas A&M.
    Mr. Flores. That is right. I am thrilled that President 
Trump picked a fighting Texas Aggie to serve in your position. 
So I am honored to have you here today.
    Secretary Perry. Thank you, sir.
    Mr. Flores. I will give you an example that you have used 
to respond to questions like the one you just had when you were 
badgered a few minutes ago. Australia had a large blackout. It 
started out as a weather-induced incident. But what they 
quickly found out is they had an imbalance in their grid. They 
didn't have sufficient base load capacity to back up their wind 
capacity, and as a result several million people were without 
power for quite a long period of time. So that is something 
that you can use to talk about what you are trying to prevent 
with your order to FERC that I think would be helpful.
    I would like to move on to NAFTA for a minute. As you know, 
NAFTA has created a robust energy trading market between the 
U.S., Mexico, and Canada. And in particular, following Mexico's 
liberalization and privatization of their energy business we 
have had a huge increase in energy flows across the border, 
particularly between Texas and northern Mexico. And this has 
resulted in a trade surplus to the United States, or for the 
benefit of the United States.
    I am concerned that the U.S. Trade Representative is making 
proposals with regard to NAFTA that would short circuit those 
gains that we have had in terms of our ability to export energy 
to Mexico. And so I was going to ask you, my question is this: 
are you consulting with the Administration, particularly with 
the U.S. Trade Representative, about making sure that we get 
NAFTA 2.0 done correctly so that we have a robust energy market 
with energy and Canada?
    Secretary Perry. We are, Mr. Flores. And I have been in 
direct contact with Pedro Joaquin Caldwell, my counterpart in 
Mexico, as well as Jim Carr, my counterpart in Canada. And we 
are going to have a trilateral meeting in Houston the 13th 
through the 15th of November to discuss this and other issues, 
particularly a North American energy strategy. We think it is 
really important that this--actually Western Hemispheric, but 
in particular the North America region is as attached to the 
hip as we can be, and supporting each other, and developing an 
energy strategy that will take care of us for a while.
    Mr. Flores. Particularly I am pleased to hear that you are 
going to stay engaged in that process because I think it is 
important for the United States as a whole, and Texas in 
particular.
    I really like the approach of energy dominance that you and 
the Administration have adopted. And it has huge geopolitical 
implications as the United States becomes energy secure. A 
great example is Lithuania. I mean they have a ship there 
called the Independence. Imagine that name, Independence. And 
they use it to liquify LNG that is imported from around the 
world, but particularly from the United States. That has 
changed Lithuania from being dependent on Russian gas to being 
a net energy supplier to its Baltic neighbors. I think that has 
huge implications geopolitically.
    So I appreciate your efforts with the Administration to 
come up with this idea of energy of energy dominance.
    But moving on, how has this new age of energy abundance 
benefitted our global competitiveness and allowed us to 
position ourselves as a global energy superpower?
    Secretary Perry. Well, the short answer is in the next 24 
months the U.S. will be a net energy exporter in totality. That 
is both crude and which Chairman Barton carried that piece of 
legislation, too, and I am sure you supported it, allowing us 
to be the economically--that is a powerful issue. And then, 
obviously, the geopolitical side of that when it comes to 
supporting our allies and getting them some options to other 
sources of energy. It is going to speak volumes about America's 
role in global issues going forward.
    Mr. Flores. I have a couple of other questions I will 
submit for the record in the interest of time. But I do have 
one final question.
    Recently the House passed H.R. 2910, which is one of my 
pieces of legislation, called Promoting Interagency 
Coordination for the Review of Natural Gas Pipelines Act which 
improves FERC's permitting process, or FERC's role in the 
permitting process. Do you agree that it would help to have one 
agency acting as the lead agency for the purposes of 
coordinating the various environment reviews for pipeline 
construction?
    Secretary Perry. I will put on my previous hat as a former 
governor of Texas. It would make abundant good sense to always 
keeping the people's needs and the safety and environmental 
issues paramount, but to find more efficient, effective, 
streamlined ways to permit projects is going to help this 
economy. There is nothing that we did in the State of Texas 
that sent a more powerful message for economic development than 
having a stable permitting and regulatory climate.
    Mr. Flores. That is great. Thank you for being here today. 
It is great to have you as our lead cabinet witness.
    I yield back the balance of my time.
    Secretary Perry. Thank you, sir.
    Mr. Barton. The gentleman's time has expired. And we now 
recognize the gentleman from Iowa, Mr. Loebsack, for 5 minutes.
    Mr. Loebsack. Thank you, Mr. Chair. Great to have you, Mr. 
Secretary, today. I am really glad that you are here.
    I have learned a lot being near the end of the dais here. I 
get to listen to a lot of questions and hear the answer.
    Secretary Perry. Me too.
    Mr. Loebsack. First of all, thank you for your service and 
your commitment to veterans. I have a couple of my own 
children, one who is going to be deployed any minute now to 
Kuwait. So thank you very much, I appreciate it.
    I liked what you said at the outset, too, that our national 
security depends upon our energy security. There is no question 
about that, whether we are talking about oil imports or 
whatever the case may be. And so I do appreciate that comment. 
And you have talked about diversity, including wind, solar, a 
variety of different--it is kind of all-of-the-above approach.
    I am from Iowa, and while in the aggregate Texas does have 
more wind energy output than Iowa does, percentage-wise, as you 
mentioned,----
    Secretary Perry. Right.
    Mr. Loebsack [continuing]. Texas about 12 percent, and Iowa 
is about 37 percent.
    Secretary Perry. Yes, you do a great job.
    Mr. Loebsack. And we are moving up all the time.
    And in your confirmation hearing you said, ``If confirmed, 
I will advocate and promote energy in all forms, and that 
certainly includes renewables.'' But then just last week EPA 
Administrator Pruitt attacked these provisions by saying that 
he would like to see them eliminated.
    And I quote what he said, Secretary Pruitt again, ``I would 
do away with these incentives that we give to wind and solar.''
    You know that the production tax credit for wind, the 
investment tax credit for solar have really driven billions of 
dollars into rural America in particular. And I represent 24 
counties in southeast Iowa. I visited a new wind farm that 
MidAmerican is putting up just recently. And it has helped 
consumers, of course, save money, created all these new jobs.
    Just a very simple question, yes or no. Do you agree with 
Mr. Pruitt that we have got to end these programs, these 
incentives that we are giving to wind and solar?
    Secretary Perry. I can't give you a yes or no. I can refer 
you back to what I said about my children earlier. There is a 
place for these subsidies as we build innovation and we 
commercialize it. There is some point that you say you are on 
your own. You can stand or fall on the market.
    And I would suggest to you that both the solar and the wind 
industry is approaching that very mature stage. You can't on 
one hand say, we are this clear deliverer of a base load of 
energy; oh, but we need to be, continue to be treated like we 
were when we were not that mature. So finding the balance there 
and finding the right time to say, you are mature enough, out 
the door.
    Mr. Loebsack. Well, I will say that rural America is 
hurting big time, and these investment tax credits for solar, 
and production tax credits for wind have been very, very 
wonderful for rural America, for our farmers, and for clean, 
renewable energy, and also for making sure that we are secure 
in the energy sector, and that is national defense as far as I 
am concerned.
    I really was hoping that you could give me a yes or a no 
whether you agree with Secretary Pruitt or not.
    I would like to mention the Renewable Fuel Standard, too, 
if I could. Again, I think it is about 25 percent of our oil 
that we actually import. I think half of that comes from an 
area where my stepson is being deployed as we speak. And it was 
very disappointing, I think, for a number of us in states that 
really do produce a lot of ethanol and biodiesel. Especially 
when it comes to ethanol it was very, very disheartening for us 
to see that the volumes were reduced when it comes to ethanol 
with respect to the EPA's proposal for next year.
    And this is a bipartisan concern. We have had our senators 
from Iowa speak out about this, and they are Republican. I am 
the only Democrat from the State of Iowa. We are united on 
this. And so I want to ask you, do you believe that there is a 
real commitment from this Administration to the Renewable Fuel 
Standard? Or are our fears to be confirmed that this 
Administration is backing off on that commitment?
    Secretary Perry. Well, I would refer you to the remarks 
that the President has made about Iowa and Iowa corn growers 
and ethanol. He has made it abundantly clear to me--I can't 
speak about any of the other cabinet members--but he has made 
it abundantly clear to me that he is supportive of it.
    Mr. Loebsack. I can just say this, and look, the President 
has said a lot of things on a lot of different issues, and not 
always consistent from day to day, minute to minute, or month 
to month, and so that is, I think, a big part of why we have a 
lot of concerns in Iowa about the commitment of the 
Administration to the Renewable Fuel Standard.
    Secretary Perry. Yes, sir. I will leave that argument to 
some other folks. I just know what he said to me.
    Mr. Loebsack. Do you have commitment yourself to the RFS?
    Secretary Perry. I think exporting American energy is where 
our focus needs to be.
    Mr. Loebsack. No offense, but I do believe we have to make 
sure that we are not so dependent upon energy----
    Secretary Perry. That is right.
    Mr. Loebsack [continuing]. Being brought in from the 
outside.
    Mr. Barton. The gentleman's time has expired.
    Mr. Loebsack. Thank you, Mr. Secretary, I appreciate it.
    Secretary Perry. Yes, sir, thank you.
    Mr. Barton. I want to announce we have got about three more 
members. And we have got lunch in my office, which is like 30 
seconds, if you and your staff have the chance----
    Secretary Perry. Great.
    Mr. Barton [continuing]. To come down and eat as soon as we 
get through. I know you all are on a tight schedule, but I 
think it is Texas barbecue, so it might be worth coming by.
    The gentleman from North Dakota, Mr. Cramer, for 5 minutes.
    Mr. Cramer. Thank you, Mr. Chairman.
    I am from the very north tip of Texas. I am the only 
member, it is hard sometimes to be among all these Texans who 
stick so closely together, but I am proud to be part of the 
same, same cult, I suppose you could say.
    I cannot tell you how much I appreciate you being here and 
how refreshing you are to listen to, Mr. Secretary. It is very 
impressive. And I love the fact that you have taken center 
stage on all things energy, realizing there are lots of other 
agencies that have the energy nexus clearly. But you are 
providing real leadership, and I appreciate that.
    And I especially appreciate your references earlier to the 
importance of the intellectual value chain of all things 
nuclear. I don't think that can be overstated, so thank you for 
that. And for the fact that we have acquiesced as a country 
much of our leadership on nuclear, including the enrichment of 
uranium. So thank you for that.
    I want to focus a little bit back on, and want to say thank 
you for your leadership on searching for a way to properly 
compensate the inherently more reliable, most reliable sources 
of base load electricity. I never cease to be amazed by how 
little regard there is for having lights on 24 hours a day, 365 
days a year around here. Sometimes I worry, Mr. Secretary, that 
it will require a crisis for some people to remember how 
important coal and nuclear are. Thank you for focusing on that.
    It is entirely appropriate for FERC to take a look at this 
and give it appropriate value. In fact, I find it rather 
offensive that some people suggest you are putting a thumb on 
the scale, when the reality is you are just rebalancing the 
scale.
    Secretary Perry. Good point.
    Mr. Cramer. Where have people been for the last several 
decades who suggest that somehow we are manipulating markets? 
The whole idea of RTO is just to manipulate markets. That is 
why we have RTOs. It is not a free market. From the subsidies, 
through the tax code, through DOE grants and loan programs, all 
the way to public utility commissions in states who have 
mandates based on portfolio standards, those are all 
manipulations of markets. Your responsibility is right: make 
sure the lights stay on. So I appreciate that focus.
    With that in mind I am going to ask a couple of questions. 
And I don't need you to answer them today, but I am hoping you 
can get back to me on it.
    In the proposed Grid Resiliency Pricing Rule, resources 
that are subject to cost observance or state regulation, state 
and local regulation, are excluded. And I would like to get an 
explanation as to why.
    And I am wondering if what you meant was only those sources 
that don't participate in a FERC-regulated wholesale market? 
Because in North Dakota, where I was once an energy regulator, 
all of our utilities are virtually, obviously they are either 
under regulation or they are under regulation by their 
ownership in the case of the rural electric cooperatives. But 
they are all subject to rate regulations of some sort. And I 
want them to be afforded the same economic benefits as a 
merchant generator, for example. So that is one area I would 
like to explore a little bit with you later.
    I also wonder about the 90-day fuel supply. And I say that 
because in North Dakota all of our generators are at mine 
mouth. They are all, all but one small one, literally co-exist 
with the coal mine itself. So while they may have a 30-day pile 
next to the plant, the plant is next to the coal mine and there 
is an 800-year supply. I am wondering if there is not some 
adjustment that could be made to understand that.
    With my remaining minute-and-a-half, though, I want to get 
to, I need to address something that has been said a couple of 
times by my friends on the other side of the aisle. They have 
referenced NERC, as though somehow NERC doesn't support what 
you are doing. And I pulled up some comments from the NERC, 
specifically the CEO, regarding the concerns that were raised 
with your order. I am just going to quote a couple things:
    ``Higher reliance on natural gas exposes electric 
generation to fuel supply and delivery vulnerabilities, 
particularly during extreme weather conditions.'' This is from 
NERC now.
    ``Maintaining fuel diversity and security provides best 
assurance for resilience.''
    ``Premature retirements of fuel secure base load generating 
stations reduces resilience to fuel supply disruptions.'' This 
is not just simply your heart speaking, this is your experience 
speaking, and this is NERC's CEO speaking.
    Here is another direct quote from him:
    ``Coal-fired and nuclear generation have the added benefits 
of high availability rates, low forced outages, and secured on-
site fuel. Many months of onsite fuel allow these units to 
operate in a manner independent of supply chain disruptions.''
    You are entirely appropriate and right to challenge FERC 
with this lest we let emotions dictate our policy.
    So, with that, as my time runs out thank you for your 
service, and I look forward to following up on the rest of 
this.
    Mr. Barton. The gentleman's time has expired.
    Last but not least, the gentleman from Michigan, Mr. 
Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman. And I assume the 
invitation for lunch in your offices goes for us, too, that 
have stayed to the end.
    Mr. Barton. Excuse me?
    Mr. Walberg. I was just asking, Mr. Chairman, I was hoping 
that your invitation to lunch was included for us as well.
    Mr. Barton. Well, sure.
    Mr. Walberg. Especially since we stayed all the way to the 
end. But let me just----
    Mr. Barton. We may have to do the loaves and the fishes, 
but all the members that are here, including my good friend 
Bobby Rush, are welcome to come to my office. And we will make 
do with whatever is there.
    Mr. Walberg. Mr. Chairman, you are taking my time right 
now. But----
    Mr. Upton. I will reset the clock.
    Mr. Walberg. Thank you.
    Mr. Secretary, thank you for being here. And those of us 
who sit this far to the end of the dais, oftentimes it is 
difficult to sit this far to the end of the dais to listen to 
what is going on, but you have been very refreshing today. And 
the fact of your candor and your willingness to not let issues 
like climate change, like the issues of regulatory concerns get 
in the way of a whole understanding that we still have to do 
what we have to do for our people.
    And we can debate all these issues, and they certainly have 
worthiness of debate, but in the end we have to provide the 
power to keep the lights on and keep grandma and, oh by the 
way, me warm as well in my house. So, thank you for that.
    And I also appreciate your humility, even admitting 
mistakes. I sat next to you the morning after those mistakes at 
a breakfast of supporters of you, and appreciate the fact that 
you are here right now. Thank you for your work.
    I represent a district in Michigan that has all of the 
above in energy production and use. We make things that go into 
renewable power and ship those around the country. We have the 
largest coal-fired plant in North America sitting on Lake Erie 
in my district. We have Fermi 1, 2, and we also have the 
license for Fermi 3. And it discourages me that Fermi 3, right 
now the license is there, the utility is not really thinking 
about using it at this point in time because of economics and 
politics.
    And so I would like your comments on that. I appreciate 
your position that you have laid out so far on nuclear energy 
and how it relates to our entire life here in the United States 
and security. But what about that? I mean, should we hold 
these, these plans in abeyance? Are we going to have the 
opportunity for nuclear power to be used and to be competitive? 
Or do we just have a license and assume that it is uncertain?
    Secretary Perry. I think it is, thank you, sir, it is 
important to talk about nuclear energy as part of our 
portfolio. It doesn't play a more important role than fossil 
fuel, or wind, or the others. I think having those sectors all 
be healthy is really important.
    And I don't think anyone would argue right now that nuclear 
energy is healthy. It is not. And it is not because of the 
regulatory burden that has been in place, the political burden 
that has been put in place. And I think for our future 
security, both energy security and our national security, to 
have that industry be healthy is very important. That means 
having a supply line of both the products that go into those, 
the hardware if you will, and the intellectual capital that 
comes from the young men and women that are going into the 
university pipeline at this particular point in time to be 
nuclear energy engineers, et cetera.
    So what is next I think is one of the important questions. 
Just like looking over the horizon and seeing the future of, 
maybe not too clearly because it is opaque in a lot of ways 
when it comes to trying to decide or know what is going to 
happen from a weather phenomenon when we talk about why it is 
important for us to have that solid and resilient grid.
    But the same is true on the nuclear side. Look over the 
horizon and see what is new. That is what your national labs 
are involved with, and partnering with the private sector so 
that we, whether it is small, modular reactors. And when you 
think about the challenges, Mr. Rush, that we have in Puerto 
Rico today, it would seem to me that if we had a small cadre of 
small modular reactors that we could have air-lifted down there 
and to have plugged in and to make a difference, maybe that is 
the kind of planning we need to be talking about as a country.
    And it is not just in an island environment like the 
citizens of Puerto Rico find themselves, but in a host of 
different ways, whether it is events around the world where 
America can participate. But having this nuclear energy 
industry healthy again--and I haven't even mentioned the part 
about our role in keeping America safe from the standpoint of 
having a nuclear weapons arsenal that is safe and modern. And 
that is going to only occur if we have the bright, young minds 
that are coming up through the nuclear programs to populate 
those positions.
    Mr. Walberg. Well, thank you, Mr. Secretary. And keep 
speaking the truth in a realistic fashion as you do about 
energy and its needs. Thank you.
    Secretary Perry. Thank you, Mr. Walberg.
    Mr. Barton. The gentleman's time has expired.
    Before we excuse you, Mr. Secretary, one last question and 
quick answer. How many Senate-confirmed people do you have in 
DOE right now?
    Secretary Perry. Not enough.
    Mr. Barton. Your staff is holding up three fingers.
    Secretary Perry. Yes. That is why I say not enough.
    Mr. Barton. Do you know how many are yet to be confirmed?
    Secretary Perry. Not that you have ever had to wait on the 
Senate before. If there is anything that you all can do to kind 
of----
    Mr. Barton. But you have got three, and probably 10 or 12 
are waiting to be confirmed?
    Secretary Perry. At least. Yes, sir. I don't know what the 
numbers are, but.
    Mr. Barton. The chair recognizes the gentleman from 
Illinois for one brief question.
    Mr. Rush. One brief question.
    Mr. Secretary, my office has been working closely with the 
Office of Economic Impact and Diversity on efforts to increase 
diversity in the energy sector. What is the future of that 
office under your administration, the Office of Economic Impact 
and Diversity?
    Secretary Perry. Mr. Rush, it is there and the will of this 
committee and the will of Congress is going to be where, I am 
going to take my instructions from you and from the members of 
this committee and from the Senate. It is there. I would 
suggest to you it is functioning properly and it will continue 
to get the attention and the respect that it should.
    Mr. Barton. It will be a part of our reauthorization this 
session, I assure you.
    Mr. Secretary, we thank you. The Chair wants to announce 
that all members have ten days to submit written questions for 
the record.
    This hearing is adjourned.
    [Whereupon, at 1:03 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    

                                 <all>
</pre></body></html>
